<html>
<title> - COLLEGE RECRUITING: ARE STUDENT ATHLETES BEING PROTECTED?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



       COLLEGE RECRUITING: ARE STUDENT ATHLETES BEING PROTECTED?

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2004

                               __________

                           Serial No. 108-64

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

92-541              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
RALPH M. HALL, Texas                   Ranking Member
MICHAEL BILIRAKIS, Florida           HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
CHRISTOPHER COX, California          SHERROD BROWN, Ohio
NATHAN DEAL, Georgia                 BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi, Vice Chairman           TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho
JOHN SULLIVAN, Oklahoma

                      Bud Albright, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                 JANICE D. SCHAKOWSKY, Illinois
ED WHITFIELD, Kentucky                 Ranking Member
BARBARA CUBIN, Wyoming               CHARLES A. GONZALEZ, Texas
JOHN SHIMKUS, Illinois               EDOLPHUS TOWNS, New York
JOHN B. SHADEGG, Arizona             SHERROD BROWN, Ohio
  Vice Chairman                      PETER DEUTSCH, Florida
GEORGE RADANOVICH, California        BOBBY L. RUSH, Illinois
CHARLES F. BASS, New Hampshire       BART STUPAK, Michigan
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
MARY BONO, California                KAREN McCARTHY, Missouri
LEE TERRY, Nebraska                  TED STRICKLAND, Ohio
MIKE FERGUSON, New Jersey            DIANA DeGETTE, Colorado
DARRELL E. ISSA, California          JIM DAVIS, Florida
C.L. ``BUTCH'' OTTER, Idaho          JOHN D. DINGELL, Michigan,
JOHN SULLIVAN, Oklahoma                (Ex Officio)
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Berst, S. David, Vice President of Division I, NCAA..........    36
    Hoffman, Elizabeth ``Betsy'', President, University of 
      Colorado System............................................    32
    McPherson, Donald G., Executive Director, Sports Leadership 
      Institute..................................................    20
    Osborne, Hon. Tom, a Representative in Congress from the 
      State of Nebraska..........................................    15
    Williams, David, II, Vice Chancellor for Student Life and 
      University Affairs, General Counsel, Professor of Law, 
      Vanderbilt University......................................    26

                                 (iii)

  

 
       COLLEGE RECRUITING: ARE STUDENT ATHLETES BEING PROTECTED?

                              ----------                              


                        THURSDAY, MARCH 11, 2004

              House of Representatives,    
              Committee on Energy and Commerce,    
                       Subcommittee on Commerce, Trade,    
                                   and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2123, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman) presiding.
    Members present: Representatives Stearns, Whitfield, 
Shimkus, Shadegg, Bass, Bono, Terry, Issa, Otter, Sullivan, 
Schakowsky, Towns, Green, McCarthy, and Degette.
    Staff present: David Cavicke, majority counsel; Jon Tripp, 
deputy communications director; Brian McCullough, majority 
professional staff; Jill Latham, legislative clerk; and 
Jonathan J. Cordone, minority counsel.
    Mr. Stearns. Good morning. The subcommittee will come to 
order.
    Today, my colleagues, we will consider rules governing 
recruiting student athletes and the enforcement of those rules 
by our Nation's colleges and universities. The subcommittee has 
jurisdiction over activities in interstate commerce. The 
subcommittee has had a long history of oversight of the 
National Collegiate Athletic Association, a member organization 
of colleges and universities, whose purpose is to promote 
amateur collegiate athletics.
    Commerce is certainly implicated. The NCAA produces 
multiple products or content, as our friends in the telecom 
world call it, which is sold on cable and over the broadcast 
networks for hundreds of millions of dollars each and every 
year. College athletics is big business. Star football coaches 
are now routinely paid millions of dollars a year, and are the 
highest paid persons working for State government.
    Universities jump to different conferences with the stated 
purpose of producing conference title games and bigger payouts 
from TV networks. Lawsuits are filed over the distribution of 
money from the NCAA tournament and the Bowl championship 
series.
    State taxpayers are presented with bills or debt for a new 
sports stadium in order to remain competitive with league 
rivals. Some in college athletics have referred to this 
spiraling of spending as an arms race. Amid all this commerce 
and money, the question arises: what happens to the student 
athlete?
    In the past 5 years, the NCAA has adjudicated over 60 major 
infraction cases, over 40 of which were related to recruiting. 
Press reports have focused on the following recruiting 
practices--the payment of a finder fee of $200,000 by a booster 
to high school coach with the knowledge of some athletic 
department to guarantee the enrollment of a star player in a 
favored university, the recruiting of athletes with felony 
convictions, and the use of strippers and allegations of 
procurement of call girls for recruits.
    Additionally, there is the question of what kind of 
education elite athletes in football and basketball receive 
after they sign their letter of intent. Graduation rates for 
athletes in football and basketball are very low. Often less 
than 50 percent graduate. Some universities take in the 
players, use them to generate huge revenues, and then spit them 
out without a degree. Most student athletes do not make it in 
the ranks of professional sports.
    The Washington Post and The Weekly Standard reported the 
questions of an actual final exam to students at a major State 
university. The class was titled Coaching Principles and 
Strategies of Basketball. The multiple choice questions 
included the following. How many goals are there on a 
basketball court? How many points does a three-point field goal 
account for in a basketball game? How many halves are there in 
a college basketball game?
    My colleagues, I submit that students taking courses like 
this were cheated out of a real education. Perhaps less 
emphasis on the commercial aspect of college sports, the 
winning at any cost, the hype and the payouts from Bowl or 
tournament participation, and more on the older ideal of 
honorable competition among athletes who are, first and 
foremost, students would be good.
    Athletes in track and field, swimming, wrestling, and other 
sports without a large professional following are better 
integrated into college life. There are bona fide students who 
happen to be good athletes. The quest for winning doesn't have 
to be to the exclusion of all else.
    The NCAA has detailed rules governing the recruiting and 
eligibility of college recruits, and these rules are pretty 
good. The enforcement side, of course, is another matter. The 
NCAA has, I understand, about 12 persons dedicated to 
enforcement--about one for every thousand members of the NCAA.
    Oversight enforcement is the responsibility of the member 
colleges and the universities. Ultimately, the president of 
each institution should be held accountable for enforcing these 
rules.
    Today we will hear from two universities--the University of 
Colorado and Vanderbilt University. We are joined by Mr. David 
Williams, the Vice Chancellor of Vanderbilt, and President 
Betsy Hoffman of the University of Colorado. I commend 
President Hoffman for coming today to answer our questions 
about the very serious allegations of misconduct at the 
University of Colorado.
    Our inquiry is to recruiting and its enforcement. The 
supervision by the administration of the athletic department is 
part of that inquiry. The allegations of criminal behavior are 
appropriately examined in another forum, that of the Boulder 
District Attorney and the courts themselves.
    I am also delighted that my colleague Tom Osborne, a Member 
of Congress representing Nebraska's 3rd District, is here. Mr. 
Osborne is perhaps the greatest college football coach who did 
not coach the Florida Gators.
    We look forward to his insights. We will also hear from 
David Berst of the NCAA and Don McPherson of the Sports 
Leadership Institute. We look forward to all of your testimony 
and appreciate your time.
    And I would also like to welcome Bob Beauprez to the 
committee from the great State of Colorado. Bob, thank you for 
coming. With that----
    Ms. Schakowsky. I thank you, Mr. Chairman, for holding this 
hearing, and I thank all of the witnesses for agreeing to 
testify today. And I also welcome our colleague Tom Osborne to 
this committee this morning.
    This is a very, very serious matter, and I think it is 
important that we examine what really happens when our young 
men are recruited for sports programs. It is important that 
rules and structures are in place to prevent the types of 
occurrences on recruiting trips that we have been reading about 
too frequently in the news these days, particularly involving 
alcohol, drug use, and violence against women.
    I believe it is important that administrators at all 
schools involved, as well as NCAA officials, take all 
allegations seriously and put forth concerted efforts to truly 
change what seems to have become common practice in the 
business of student athlete recruitment.
    We have heard a lot about the University of Colorado. 
Obviously, parties that involve sex and alcohol to lure 
recruits and end in sexual assault are intolerable, not to 
mention illegal, beginning perhaps with underage drinking. We 
know that Colorado University has a history of problems with 
its recruiting practices, and allegations that recruits and 
players at Colorado University have assaulted women are not 
new.
    I know the university has taken some steps to investigate 
this situation and to reform its recruiting rules, and these 
are very good first steps. However, I am concerned that it took 
a great deal of media attention to spur recent actions. I hope 
this will not be the end of the story and that further 
proactive measures will be taken to truly reform the culture of 
athletics and recruiting at that school.
    I am eager to hear from Colorado's President, Dr. Elizabeth 
Hoffman, about how the school plans to prevent such misconduct 
and sexual violence in the future and deal with problems in a 
more effective way when they do arise.
    I hope that Colorado University will act in such a way that 
it does become a model program. As a mother who sent my two 
children to the University of Colorado, I want to say that the 
remarks of Coach Barnett were absolutely unacceptable. And if I 
were in charge at the university, he would have been fired.
    The University of Colorado is not the only school caught up 
in scandal. A quick look at the headlines from the last couple 
of years reveals that the University of Iowa, the University of 
Kentucky, Alabama, Georgia, Minnesota, to name a few, have all 
been in the headlines as a result of allegations of misbehavior 
and alleged sexual violence related to recruiting practices and 
recruiting trips.
    I am concerned about the culture in our top university 
athletic programs and, indeed, a culture that persists 
throughout the Nation that tolerates such violence against 
women. This hearing today is very timely, as Lifetime 
television and a host of national domestic violence and sexual 
assault advocacy organizations are on the Hill hosting Stop 
Violence Against Women Week in order to raise awareness of this 
issue.
    Nearly 1 in 6 women will be sexually assaulted in her 
lifetime, and teens and college-age women have a higher risk of 
being sexually assaulted than women in any other age group.
    This briefing is entitled ``Are Student Athletes Being 
Protected?'' I would like to add: are the female students and 
other women who are in contact with such athletic programs 
being protected? It saddens and angers me that there is no 
shortage of stories we could talk about today involving sexual 
assault and student athletes.
    I am eager to hear Mr. McPherson's perspectives on this 
issue, as a former college and professional football player, 
and now as someone who has dedicated his career to ending a 
culture of violence against women in sports. He brings a unique 
and valuable perspective to our subcommittee.
    I am also eager to hear from Mr. Berst about what the NCAA 
plans to do to address what I see as one of the root problems--
an athletic culture that tolerates and perpetuates the 
degradation and objectification of women. I know the NCAA has 
many rules and regulations regarding the logistics of 
recruiting programs, and I am encouraged by that. I am hopeful 
that the new NCAA Task Force on Recruiting will go beyond 
logistics and put in place standards for our student athletes 
that we can all be proud of.
    Finally, academics should not be left behind in this 
debate. It is critical to remember that we are talking about 
student athletes.
    I am looking forward to hearing from Mr. Williams about the 
example of Vanderbilt University and what they have done to 
lessen the culture of competitiveness and bring the focus back 
on academics.
    Again, I thank you all for being here and look forward to 
hearing what you have to say.
    Mr. Stearns. Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. Could you go over the 
answers to those questions? I got 2 out of 3 right. I don't 
know which----
    Mr. Stearns. Okay.
    Mr. Shimkus. No, I am just--it is great to be here. Let me 
tell you, as many folks know, I love athletics. And as Tom 
Osborne can confess, I participate and play as much as 
possible, even in my broken down state as it is.
    Sports and competition, done properly, teach all the right 
lessons--hard work, teamwork, commitment, sacrifice, working 
through pain. But the big business nature of sports at all 
levels--high school, collegiate, and even in professional 
sports--has really corrupted this process.
    I applaud the chairman for calling this hearing, and it is 
our continued oversight in this area that continues to be very, 
very important.
    I also welcome Tom Osborne, who is loved in Nebraska and 
highly respected here as the representative of the 3rd District 
of Nebraska. I look forward to his testimony.
    I yield back my time.
    Mr. Stearns. I thank the gentleman.
    Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman. Flights on private 
jets, lavish meals at fine restaurants, weekends at four-star 
hotels, police escorts--while this sounds like the life of a 
movie star, it was standard treatment for Willy Williams, a 
sought-after high school athlete recruited to play football by 
several major universities in Florida.
    Unfortunately, there is more--abundant boos, illicit drugs, 
strip clubs, prostitutes, and sex parties. This is not the 
seedy underbelly of professional athletics or rock stars, but 
the not-so-hidden practice of colleges and universities 
recruiting high school athletes to play football or basketball 
for them.
    We do not know how pervasive these incidents are, but we do 
know that far too many allegations have surfaced concerning 
recruitment at far too many schools. Anyone reading the stories 
about these incidents has got to wonder what in the world is 
going on when coaches and administrators allow young men, some 
only 16 or 17 years old, to enter into these situations.
    That is why this hearing today is so important. We need to 
determine whether there are systematic problems contributing to 
alleged sexual assaults by recruits and student athletes and 
unsavory, if not downright illegal, recruiting practices.
    While the most recent publicized allegations are at my own 
State university, the University of Colorado, and helped spur 
this hearing, regulations of amateur athletics have long been a 
concern of this committee.
    And, Chairman Stearns, I want to thank you for putting 
together this panel.
    I also have the special privilege of welcoming our 
witnesses here today. I hope they are able to help shed some 
light on how pervasive current recruiting problems are and what 
can be done to fix them. In particular, I would like to give a 
special welcome to Betsy Hoffman, the President of the 
University of Colorado.
    President Hoffman, we all understand how busy you are right 
now, and we really appreciate you taking your time to come and 
share your insights on both CU and, most particularly, national 
college recruiting programs.
    I also want to acknowledge President Hoffman for announcing 
last week a set of significant reforms to the recruiting 
practices of the University of Colorado's football program. I 
hope this is a model that she will extend to all of the 
university's athletic programs.
    College recruiting, however, is a nationwide practice that 
demands nationwide standards. In the highly competitive 
environment of Division I athletics, coaches are scouring high 
schools across the country to find the most talented recruits 
for their programs. This puts schools and recruits under 
tremendous pressure.
    Despite the national scope of recruiting and the fact that 
colleges and universities across the country are recruiting 
athletes far outside of their home states, the NCAA does not 
seem to have clear standards as to how recruiting trips are 
conducted.
    We all understand this intense competition for high school 
athletes. In preparing for this hearing, though, what was truly 
eye-opening was to see how many allegations there were of 
incidents of alcohol and drug use and sexual incidence at 
colleges and universities across the country.
    Allegations of the use of prostitutes, sex parties, booze, 
drugs, and late nights at strip clubs have popped up all over 
the place. My staff put together a chart of 22 alleged 
violations around the Nation, around the country, in just the 
last few years. And this is only the information in the press. 
Think of how many allegations are there that have not been put 
to light in the press.
    Mr. Chairman, I would ask unanimous consent to put this in 
the record.
    Mr. Stearns. Unanimous consent, so ordered.

  Examples of Reports of Sexual Assaults and Recruiting Violations by NCAA College Athletic Programs, 2000-2004
  A sample of allegations of inappropriate or illegal conduct by high school recruits during college visits or
                                                college athletes.
----------------------------------------------------------------------------------------------------------------
                School                          Dates                 Description                 Source
----------------------------------------------------------------------------------------------------------------
Baylor University....................  2003...................  Coach Bliss paid         ESPN.com
                                                                 students tuition,
                                                                 failed to report the
                                                                 findings of drug
                                                                 tests. A player was
                                                                 also murdered and a
                                                                 teammate was accused
                                                                 of his murder. On 2/27/
                                                                 04 the university
                                                                 turned over the
                                                                 results of an internal
                                                                 investigation to the
                                                                 NCAA. There will be a
                                                                 hearing in front of
                                                                 the NCAA infractions
                                                                 committee..
California State University at Fresno  1998-1999..............  Placed on probation (10/ NCAA Press Release
                                                                 24/03). A student
                                                                 athlete was given
                                                                 athletically related
                                                                 financial aid even
                                                                 though he was not
                                                                 enrolled in a full
                                                                 time program. He was
                                                                 also found not to be
                                                                 maintaining
                                                                 satisfactory program
                                                                 towards his degree. He
                                                                 was only at CSU part
                                                                 time and was
                                                                 simultaneously
                                                                 completing cources at
                                                                 a Junior College..
Miami, University of Florida, Florida  2003-04................  Miami recruit Willie     http://www.kusports.com/
 State University.                                               Williams violated his    news/recruiting/story/
                                                                 probation during a       109658
                                                                 Jan. 30 recruiting
                                                                 trip to Florida when
                                                                 the linebacker
                                                                 allegedly touched a
                                                                 woman without her
                                                                 permission, hit a man
                                                                 at a bar and set off
                                                                 fire extinguishers at
                                                                 his hotel. Williams
                                                                 was less than two
                                                                 weeks from the end of
                                                                 his probation, which
                                                                 stemmed from felony
                                                                 burglary charges in
                                                                 2002..
New Mexico State University..........  June 2001 (placed on     Head Coach hired a       NCAA Press Release
                                        probation).              coach from a Junior
                                                                 College on the
                                                                 agreement that two of
                                                                 his prospects would
                                                                 come with him.
Southern Methodist University........  1995...................  Placed on Probation for  NCAA Press Release
                                                                 two years. In the fall
                                                                 of 1995 an assistant
                                                                 football coach met
                                                                 with a father and
                                                                 prospective student in
                                                                 their home, which
                                                                 breaks several
                                                                 recruiting by laws..
Tennessee State                        .......................  Placed on probation for  NCAA Press Release
  University                                                     violations in Men's
                                                                 Basketball Program.
                                                                 The head coach
                                                                 observed numerous pick
                                                                 up games for the
                                                                 purposes of selection..
University of                          August 2003 (placed on   An assistant football    NCAA Press Release
  Maryland                              probation).              coach made inperson
  College Park                                                   recruiting contacts.
                                                                 On five different
                                                                 occasions the coach
                                                                 gave a prospect of
                                                                 cash ranging from $5
                                                                 to $200..
University of Alabama................  2000...................  A businessmen paid high  ESPN.com
                                                                 school coach for the
                                                                 privilege of selling
                                                                 Albert Means to UA.
                                                                 Alabama was put on
                                                                 five year probation by
                                                                 the NCAA, and reduced
                                                                 the number of
                                                                 scholarships by twenty
                                                                 one. The businessman
                                                                 and the coaches at the
                                                                 high school and UA
                                                                 were were involved in
                                                                 a federal trial and
                                                                 were prosecuted and
                                                                 were incarcerated..
University of Alabama................  2002...................  University of Alabama    Oregonian 2/21/04
                                                                 was put on probation
                                                                 after it was disclosed
                                                                 that strippers
                                                                 entertained recruits
                                                                 at parties..
University of                          4/17/03 (placed on       Placed on three years    NCAA Press Release
  Arkansas                              probation).              probation. A
  Fayetteville                                                   businessman who
                                                                 represented the
                                                                 University athletics
                                                                 institutes employed
                                                                 two athlete both prior
                                                                 and post there career
                                                                 at the University..
University of Georgia................  2001...................  UGA assistant            Red and Black (Univ. of
                                                                 basketball coach found   Georgia)
                                                                 to have given friend
                                                                 of recruit $300 to
                                                                 entice him to go to
                                                                 school..
University of Iowa...................  2004...................  High school recruit had  AP, 3/7/04
                                                                 sexual with a female
                                                                 student from the
                                                                 University of Iowa..
University of Kentucky...............  Placed on probation in   Numerous recruiting      The Courier-Journal
                                        Jan 2001.                violations within the    (Louisville Kentucky)
                                                                 basketball team. The
                                                                 NCAA infractions
                                                                 committee put the team
                                                                 on probation for three
                                                                 years, banned it form
                                                                 the bowl for a year,
                                                                 and reduced its
                                                                 scholarships..
University of                          2003...................  Highly touted recruit    http://www.kusports.com/
  Minnesota                                                      Lydon Murtha spurned     news/recruiting/story/
                                                                 Minnesota after Gopher   109658
                                                                 players took him and
                                                                 three other recruits--
                                                                 one of whom was 17--to
                                                                 an 18-and-over strip
                                                                 club during a December
                                                                 campus visit. More
                                                                 Minnesota recruits
                                                                 later acknowledged
                                                                 they had been takeen
                                                                 to a strip club during
                                                                 other recruiting
                                                                 weekends..
University of Missouri...............  Investigation launched.  Point Guard Ricky        ESPN.com; AP News
                                         Sept 2003............   Clemons did not have     Stories
                                                                 the necessary academic
                                                                 qualifications. An
                                                                 investigation has been
                                                                 launched..
University of Nevada-Las Vegas.......  2000...................  Representative of the    http://www.ncaa.org/
                                                                 university's athletics   enforcefrontF.html
                                                                 interests provided
                                                                 cash to a prospect on
                                                                 numerous occasions
                                                                 totaling approximately
                                                                 $5,600. A
                                                                 representative of the
                                                                 university's athletics
                                                                 interests provided
                                                                 cash payments to a
                                                                 prospective student-
                                                                 athlete and an
                                                                 enrolled men's
                                                                 basketball student-
                                                                 athlete..
University of Oregon.................  2003...................  Father of recruit        Oregonian 2/21/04
                                                                 alleges that his son
                                                                 was offered sex,
                                                                 alcohol and marijuana
                                                                 during recruiting trip
                                                                 to UO..
University of                          2001...................  Four women in separate   http://www.daily
  Washington                                                     cases sued the            vanguard.
                                                                 University of             com/vnews/
                                                                 Washington and UW         display.v/ART/
                                                                 football players          2004/03/02/
                                                                 alleging they were        404439f0d84f7
                                                                 sexually assaulted.
                                                                 The 2004 lawsuit
                                                                 alleged that UW
                                                                 negligently recruited
                                                                 and supervised the
                                                                 football player named
                                                                 as the assailant..
University of                          .......................  UW faces NCAA            http://www.daily
  Washington                                                     allegations that a        vanguard.
                                                                 lack of institutional     com/vnews/
                                                                 control led to            display.v/ART/2004/
                                                                 gambling violations by    03/02/404439f
                                                                 Neuheisel and other       0d84f7
                                                                 athletic-department
                                                                 employees. The
                                                                 department is also the
                                                                 subject of an internal
                                                                 inquiry into the drug-
                                                                 dispensing practices
                                                                 of a former UW team
                                                                 doctor..
University of                          2004...................  Running back Dwayne      Cleveland Plain
  Wisconsin                                                      Smith was jailed          Dealer
                                                                 Monday on suspicion of
                                                                 sexually assaulting a
                                                                 19 year old woman..
University of                          2004...................  UW basketball player     Cleveland Plain
  Wisconsin                                                      Boo Wade charged with     Dealer
                                                                 assault after choking
                                                                 woman in her
                                                                 apartment..
Virginia Tech........................  2004...................  Virginia Tech also       The Virginian-Pilot
                                                                 created a stir when      (Norfolk, Va.)
                                                                 Marcus Vick was
                                                                 charged last week with
                                                                 four counts of
                                                                 contributing to the
                                                                 delinquency of a
                                                                 minor. According to
                                                                 police, Vick and two
                                                                 teammates served
                                                                 liquor to three
                                                                 underage girls at
                                                                 Vick's apartment. Vick
                                                                 also is accused of
                                                                 having sex with one of
                                                                 the 15-year-old girls..
----------------------------------------------------------------------------------------------------------------


    Ms. DeGette. Thank you. Iowa, Michigan, Oregon, Alabama, 
Florida, Minnesota--these are just a handful of the 
universities where there have been allegations of sexual 
assault and/or reports of sex at recruiting parties. If this 
isn't an indication that we are dealing with a deeply rooted 
institutional problem, I don't know what else it would take to 
make the public and lawmakers sit up and take notice.
    The NCAA must commit to doing its part to not just lip 
service but actually making sure that college sports programs 
across the country are run with integrity, excellence, and 
respect, and an eye toward the academics.
    Finally, the NCAA appears to recognize there is a problem 
here. I am looking forward to the testimony today about what 
they intend to do about this problem.
    I thank the chairman for holding this hearing again, and I 
look forward to hearing all of the testimony, and yield back 
the balance of my time.
    Mr. Stearns. And I thank the gentlelady.
    I would remind all members, if you want to forego your 
opening statement, then we would add it to your time for 
questioning.
    Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman. May I inquire of the 
chair, are we supposed to have 3 minutes for our opening?
    Mr. Stearns. Three minutes.
    Mr. Otter. Oh.
    Mr. Stearns. We will add that--if you don't use----
    Mr. Otter. I didn't want to get caught in an infraction 
here.
    Mr. Stearns. Okay.
    Mr. Otter. Well, thank you, Mr. Chairman. And I want to 
welcome my seat-mate and colleague and freshmen classmate Mr. 
Osborne to the chamber, and I look forward to hearing his 
testimony as well as I do the rest of the witnesses.
    Certainly, recent events surrounding the possible 
violations of NCAA rules--recruiting rules--have made big 
headlines. As a former college athlete, I understand the role 
amateur athletics can play in an educational experience. And 
for many, as it served for me, it serves as a means to 
otherwise apply for an expensive college education.
    The NCAA has taken great efforts to put in place a number 
of rules designed to protect and preserve the amateur athlete 
as well as uphold the reputation of the institution and their 
membership. I am not sure what role, if any, that Congress 
should play in regulating or investigating specific alleged 
violations of any NCAA rules.
    However, it would be appropriate for Congress to intervene 
if the NCAA rules or its members create a recruiting 
environment that relies on practices that violate the laws of 
this land or demonstrate a propensity to wilfully impair 
student athletes. At present, I believe that the NCAA has acted 
appropriately when necessary to investigate and punish 
violators of the NCAA rules.
    As an outsider looking in, it seems to me that the onus is 
on the individual collegiate institutions and on the student 
athletes to abide by these regulations. When rules are broken, 
consequences should follow. When rules provide to be 
inadequate, then the ruling body--and in this case the NCAA--
should investigate why and act accordingly.
    I believe in the lessons that are taught in the classroom, 
and I also believe in the lessons that are learned on the 
playing field. It is important to retain the integrity of 
competition. It is an injustice to our youth when those who 
have the power to influence and teach our children for the 
better set examples for the worst.
    I look forward to hearing the testimony of the witnesses, 
and I thank you, Mr. Chairman, and I yield back the balance of 
my time.
    Mr. Stearns. I thank the gentleman.
    Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. I would like to ask 
unanimous consent to place the whole statement in the record.
    Mr. Stearns. By unanimous consent, so ordered.
    Mr. Green. And I will be very brief. One, like my 
colleagues, I appreciate your calling this hearing with the 
recent publicity at the University of Colorado. But, again, 
this is a problem with every one of our institutions, and I 
appreciate Congress looking at it. Hopefully, the NCAA will be 
aggressive in dealing with this problem, not just in Colorado 
but all across the country.
    And I yield back my time.
    Mr. Stearns. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. I regret that Coach 
Osborne probably will not have the time to explain to the 
chairman all of the lessons he had taught the Gators over the 
years through his practices. However, I would appreciate if 
Congressman Osborne--Coach Osborne and also Professor Osborne 
could help us.
    As we look at collegiate sports, which is our area of 
jurisdiction, I believe it is helpful to have somebody who has 
seen higher education not only as an athlete and an instructor, 
but also as a professor at large, to give us a contrast of what 
we are looking at today as some of these alleged violations, 
which we won't be dealing with, but sort of the culture of the 
college campus.
    I, for one, am personally concerned that we are pointing to 
excesses of athletics and perhaps not looking enough at a 
pervasive problem that exists on the college campus. These 
allegations by athletes, although well reported, pale in 
comparison to the attacks that occur on campuses around the 
country, pale in comparison to the amount of alcohol and drug 
abuse that is going on with non-athletes.
    And so hopefully these hearings, although it is not within 
our jurisdiction, will put into perspective the problems which 
the NCAA will have to deal with within a culture that exists on 
college campuses that without a doubt also has to be addressed.
    And with that, I yield back the balance of my time.
    Mr. Stearns. I thank the gentleman.
    Ms. McCarthy.
    Ms. McCarthy. Mr. Chairman, I am going to put my remarks in 
the record. I thank you and Ranking Member Schakowsky for 
convening this important hearing today, especially as we 
celebrate the 10th anniversary of the Violence Against Women 
Act.
    Thank you.
    [The prepared statement of Hon. Karen McCarthy follows:]

Prepared Statement of Hon. Karen McCarthy, a Representative in Congress 
                       from the State of Missouri

    Thank you Mr. Chairman and Ranking Member Schakowsky for convening 
this important hearing today. It is particularly timely as we recognize 
and celebrate the 10th Anniversary of the Violence Against Women Act. I 
cannot think of a more appropriate way to commemorate this important 
week than to hear from those involved in these recruiting practices. I 
am especially interested to hear from the panel on the connection 
between high school and college athletes and the culture of 
objectification of women. We on this committee know that in order to 
effectively address this problem, we need to address the culture of 
these practices as well as the enforcement of the rules governing 
athlete recruitment.
    The excitement of private jets and lavish parties--all of which 
seems to be allowed under the NCAA's rules--is all consuming. There is 
no doubt about it, college sports have become a big business and the 
drive to recruit star athletes has led to a multitude of practices that 
neither the Universities nor the NCAA should tolerate. As we have seen, 
merely turning a blind eye to what is occurring is a poor solution.
    I am eager to hear the testimony of the witnesses today and to 
assess their recommendations on what else can be done to make sure that 
student athletes are recruited to schools in accordance with NCAA 
rules.
    This issue of recruiting college athletes hits particularly close 
to home for me. In my own state of Missouri, the University of 
Missouri's athletics department has had its own set of problems but it 
is now actively working to ensure that they are not repeated. They have 
made important changes to their student host program to ensure that 
high school athletes receive an idea of what it is like to be a 
student, as well as an athlete, at the University of Missouri. Student 
hosts are only used for on campus events and tours, not for off campus 
events. Further, all of the university's student athletes are involved 
in awareness-raising in terms of violence against women and are 
encouraged to talk about it.
    As a big 12 school, there is pressure to attract the brightest 
stars in high school athletics. But that should not give them a blank 
check for inappropriate tactics that expose young athletes to illegal 
activity. Recognizing this, the University of Missouri has also 
convened a group, chaired by a faculty member, which is reviewing the 
allegations of athlete misconduct. We must recognize that the 
University of Colorado is not the only educational institution to 
confront recruiting infractions and poor judgment among student 
athletes and those who recruit them. These practices are occurring at 
universities across the country.
    I commend President Hoffman and the other witnesses for taking this 
important issue very seriously. I look forward to hearing from them.

    Mr. Stearns. Mr. Terry.
    Mr. Terry. Thank you, Mr. Chairman. I have a couple of 
distinct privileges this morning. One is I have three gentlemen 
from Omaha Crayton Prep High School that are out here visiting 
with NYLC. And we were just chatting before this hearing 
started, because Crayton Prep in Omaha is known as really an 
athletic powerhouse. And, in fact, people in the community are 
expecting Omaha Crayton Prep to be probably the most dominant 
football program in the State of Nebraska next year.
    Now, these three gentlemen, I don't know if they play 
football or not, but they told me they are not being recruited 
for athletics, but several of their classmates are and will 
have to sort through the issues that we are going to discuss 
here today. Because there is a culture, not only on campuses, 
as Darell had mentioned, but a competitiveness within 
recruiting.
    And the talk radio sports shows, they are all talking about 
the University of Colorado, but really what they are also 
saying is they are just the ones that have been caught so far 
in these type of things. This is pervasive throughout college 
athletics. And you get little bits and pieces of it.
    In fact, University of Nebraska obtained a commitment from 
a gentleman from the Minneapolis area who had previously 
committed to University of Nebraska. This kid's name is Mertha. 
And he was upset that when he went--took his official visit to 
that campus--University of Minnesota--that his host took him to 
a strip club. And he comes from a very Christian family, and 
decommitted after that.
    What upset me the most was how the local press indicted 
this kid, a 17 year-old, for being mad that he was taken to a 
strip club, and just ripped him apart. And I would like to 
submit a Minneapolis Tribune article for the record.
    Mr. Stearns. By unanimous consent, so ordered.
    Mr. Terry. And I would like to hear from Tom Osborne and 
our other panelists just how pervasive this is and what the 
cures are. Or is it bigger than just football or athletic 
recruiting, and it is something we have to deal with--the 
culture of alcohol and drinking and these type of parties on 
campuses today.
    Now, with the last 30 seconds that I have, as a fellow 
Nebraskan it is my honor to welcome to our subcommittee my good 
friend, doctor, congressman, coach, Tom Osborne, who--his 
values in Nebraska really defined the football program there. 
And while I am sure over his nearly, what, 18 years as a coach, 
were incidents with certain players, but certainly fought to 
have a good culture inserted into the process, and really 
recruited good kids to come to the University of Nebraska.
    And over that period, yes, defenders of the program can 
take pride in that, and trackers of the program over a long 
career can point to one or two incidences. And I think that 
speaks well of Tom Osborne and the Nebraska program.
    So welcome, Congressman Osborne, to our subcommittee. We 
are looking forward to your testimony.
    Yield back.
    Mr. Stearns. I thank the gentleman.
    Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman, for holding 
this hearing today. You know, I have been involved in this 
issue now for many, many years, with Bill Bradley. And, of 
course, Tom McMillan and I passed the Student Athlete's Right 
to Know.
    And, of course, I have been amazed at the attitude at all 
levels, in terms of even when we were working on the Student 
Athlete's Right to Know, how presidents and administrators said 
that they could not give this information, which was basically 
asking to give the graduation rate of the athletes that attend 
the university, and, of course, information that they had. And 
they were really resistant and fought it in every way, which 
points out why we have some of the problems today.
    And I look forward to this hearing from the witnesses 
today. It is important to remember that the players on the 
court, the field, the track, or the diamond, are students as 
well. And the vast majority of these athletes will not go on to 
a career in professional sports. So it is critical that these 
students receive the education and life skills needed to 
succeed after a career in college athletics.
    I also note that most of these students participating in 
the major revenue sharing sports, like football and basketball, 
often come from the most disadvantaged background in this 
country. Consequently, they need the greatest support system to 
succeed. The recent recruiting headlines point out that there 
is pressure to do whatever it takes to win. However, fixing 
this problem will not change what happens once the athlete gets 
on campus and becomes a student.
    I salute Mr. McPherson for his testimony today on this 
issue, and, more importantly, his work in this area. Clearly, 
with the millions of dollars generated by the NCAA, tournaments 
and, of course, the BCS system, there is more we can do to help 
our student athletes in the transition. And I think that one 
thing that we need to do is make certain that they have a 
strong tutorial program that when youngsters come on the campus 
that they will be able to get this kind of assistance and this 
kind of advice to help them to make the adjustment. And I think 
that no emphasis at this point seems to be placed on that. Just 
a few colleges, you know, seem to stress it, and others do not.
    So, Mr. Chairman, I am hoping today that we will hear from 
our witnesses and be able to get some information as to how the 
Student Athlete's Right to Know is working and to come up with 
some ways and methods that we might be able to bring about some 
solutions to this problem. It is widespread, let me tell you. 
It is more than what meets the eye. More than what we read in 
the paper is going on, and the time for it to stop is now.
    And on that note, I yield back.
    Mr. Stearns. I thank the gentleman.
    Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman. I want to express my 
appreciation to you for holding this hearing, and also my 
appreciation to all of the witnesses who are here today to 
testify before us and share their perspective and their 
thoughts on this important issue.
    As we begin the hearing, I think it is important to keep in 
mind the distinction between our Nation's laws and the NCAA's 
rules or bylaws that are before us. I think Mr. Berst from the 
NCAA well articulated that difference in his written testimony, 
and it is important for us to consider this because I believe 
we have to respond differently to each of those points.
    I think for this committee our first obligation is to look 
at the enforcement of our Nation's laws on college campuses. 
Many of the allegations that have arisen relating to sports in 
the past months have been violations of law, and that is, after 
all, what we have to focus on.
    We must ensure, I believe, that the victims of those 
crimes, if they are in fact crimes, feel they can come forward 
and seek justice. And I think colleges and universities have an 
important responsibility to ensure that those victims are 
treated appropriately when they come forward and they are not 
subjected to abuse or harassment. They need to be able to feel 
they can come forward.
    With regard to the NCAA and its bylaws and the rules, I am 
interested in hearing how the NCAA plans to respond or is 
responding to the many issues that have been raised. I think it 
is important for the NCAA to recognize that it has an incentive 
to police itself, because a system that's susceptible to 
corruption taints not only every school and every athlete, but 
I think it taints every student at those schools. And it is a 
serious problem which we have to address.
    Mr. Chairman, I want to again thank our panels of witnesses 
and thank you for conducting this hearing.
    I yield back the balance of my time.
    Mr. Stearns. I thank the gentleman.
    And we are welcoming for the first time Mr. Sullivan from 
Oklahoma for an opening statement. Welcome, and appreciate your 
attendance.
    Mr. Sullivan. Thank you, Mr. Chairman. It is an honor to be 
here, and I appreciate your putting on this hearing. I don't 
really have an opening statement. I just want to thank Coach 
Osborne for being here. No one knows more about this subject 
than him in this room, or in Washington, or probably the 
country. So I am anxious to hear what he has to say about a 
solution to all these issues that we face.
    Thank you very much for being here.
    Mr. Stearns. Thank you.
    Mr. Whitfield.
    Mr. Whitfield. Mr. Chairman, thank you very much. I would 
like, first of all, to introduce a couple of constituents of 
mine who want to see this hearing--Brittany Dorris right here, 
and then Rhea Badgett, who by the way has received an athletic 
scholarship to an NCAA college for golf. So she has been 
recruited and knows a little bit about some of these recruiting 
issues.
    I know we have given a lot of accolades to our colleague 
Tom Osborne. I do think we are very fortunate to have him in 
the Congress and to testify on this particular issue, because 
of the experiences that he has had as a head coach and 
recruiting. We know he had a successful program, and we also 
know that it is very difficult in today's world with all of the 
pressures on college athletes and coaches and university 
presidents to run a good, effective, and clean program.
    I am particularly pleased with the panel of witnesses that 
we have, because I think we are going to get a balanced look at 
the issue. I notice that in the memo for this hearing it--our 
staff pointed out--it mentioned that a University of Miami 
football program signed--gave a letter of intent to a recruit 
who had been charged with 10 theft charges and probation 
violations.
    And on the surface that looks very, very bad, but on the 
other hand this may be a young man who never had really many 
opportunities in life. And maybe if he gets within a structured 
program of discipline, then maybe it can help him. So I think 
there's a number of different ways to look at this.
    I am particularly delighted that Dr. Elizabeth Hoffman is 
with us today from the University of Colorado, and I know that 
she has already taken steps on her own initiative there at the 
university to help address some of their concerns. So we look 
forward to her testimony.
    And I yield back the balance of my time.
    Mr. Stearns. I thank the gentleman.
    Mr. Bass.
    Mr. Bass. I will waive.
    Mr. Stearns. The gentleman waives his opening statement.
    [Additional statements submitted for the record follow:]

Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming

    Thank you, Mr. Chairman, for holding this hearing. It provides the 
subcommittee with a valuable opportunity to explore numerous issues 
relating to the recruitment and subsequent treatment of collegiate 
athletes by the NCAA and their member institutions.
    I would also like to thank the distinguished panelists that have 
joined us today. Your testimony and first-hand insight is valuable in 
shaping the discussion about what path to take in this arena.
    Recent legal allegations have produced overwhelming public concern 
over the manner in which potential athletes are recruited. However, 
records show that NCAA recruiting violations have hardly been limited 
in scope or extent to the experiences of a single institution. Both 
Colorado University and the NCAA have responded responsibly to national 
criticism by proactively initiating reforms and evaluating current 
recruiting policies.
    Both the NCAA and its member institutions want student athletes to 
have safe and positive experiences, and I think they can work 
collectively to achieve this end. Recruitment is merely the 
commencement of a college athlete's career, and there are plausibly 
many realms of collegiate sports which would benefit from closer 
examination.
    Hopefully, today's hearing will foster a continued dialogue between 
the NCAA and university administrative officials resulting in 
meaningful improvements to college recruiting and other NCAA policies.
    I thank the Chairman again and yield back the remainder of my time.

                                 ______
                                 
 Prepared Statement of Hon. Joe Barton, Chairman, Committee on Energy 
                              and Commerce

    I commend Chairman Stearns for holding this hearing. The Committee 
has had a long history of oversight of intercollegiate athletics and 
the National Collegiate Athletic Association. Given the allegations of 
misconduct in the recruiting of high school athletes, this hearing is 
both timely and important.
    The NCAA will begin its national championships in basketball for 
men and women in one week. This should be a time to celebrate the 
student athletes and their universities as models of higher education 
and fair competition.
    But the recent history of scandals and serious allegations of both 
improper and criminal conduct has tarnished the meaning and 
significance of collegiate sports and the universities that sponsor 
them. Whether these allegations are isolated or, as many suspect, more 
widespread, is almost irrelevant. It may not be fair, but the actions 
of a few have raised doubts about the integrity of collegiate 
athletics.
    We simply cannot turn our heads to the recruiting allegations that 
have surfaced. The fact is today we have multiple cable networks, radio 
networks, websites and other media outlets that have been built around 
the sports industry because we will watch, listen or read about it. 
Collegiate athletics plays a significant part of this industry, 
particularly men's basketball and football. The pressure to win at any 
cost under these monetary circumstances has predictable outcomes of 
skirting the rules.
    If we really care about the student athletes and the future of 
collegiate sports, changes should occur. Higher education institutions 
and the NCAA will need to decide what role their athletic programs are 
designed to accomplish and stop the pretending.
    I look forward to the testimony today, Mr. Chairman, to determine 
what role, if any, Congress can play in ensuring the integrity of 
collegiate athletics.
                                 ______
                                 
  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas
    Thank you, Chairman Stearns and Ranking Member Schakowsky for 
holding this timely hearing on recruiting practices and violations 
occurring on our nation's college campuses.
    With the recent events at the University of Colorado, and with 
numerous other recruiting violations taking place over the past several 
years, this is a growing issue that must be addressed in order to 
protect both the integrity of college athletics and the students who 
get caught up in these activities.
    It is paramount that the National Collegiate Athletic Association, 
along with the administration and athletic departments of our nation's 
colleges and universities, put a stop to the types of recruiting 
violations that have flooded our news.
    Athletic scholarships provide financial assistance to individuals 
who may not otherwise have the opportunity to obtain a higher 
education.
    Yet in some instances these institutions, or individuals at these 
institutions, are using student athletes to advance their own interests 
at the expense of the student.
    Underage drinking, sexual misconduct, and bribery have no place in 
our society, let alone our college campuses.
    However these practices have been used, and more than likely still 
are being used in some cases, to draw 17 and 18 year old athletes to a 
specific sports program.
    The education and well-being of student athletes should not come 
second to the success of a college's sports program.
    While I understand the NCAA and college administrations are 
cracking down on these types of incidents, my initial reaction when I 
witness situations such as the one at Colorado is that they clearly are 
not doing enough.
    Whether it be stricter oversight by a college's administration over 
the athletic department, or stricter penalties imposed by the NCAA for 
recruiting violations, we need to move beyond the current practices to 
protect student athletes.
    It is my hope that the NCAA will make this a top priority and that 
colleges will work to prevent recruiting abuses rather than respond to 
them.
    Again, thank you to our Chairman and Ranking member for holding 
this hearing and for your leadership on this important issue.
    I yield back the balance of my time.

    Mr. Stearns. With that, Mr. Osborne, we welcome you and 
appreciate your taking your time, and so we would like to hear 
your opening statement.

  STATEMENT OF HON. TOM OSBORNE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEBRASKA

    Mr. Osborne. Thank you, Mr. Chairman, and appreciate your 
inviting me here today. We like the Gators. The Hurricanes and 
Seminoles were more problematic to us than the Gators, but any 
way I know where you are coming from.
    So, and to be frank with you, I wasn't real excited to be 
here today. But I thought maybe I could discuss a little bit 
the recruiting situation as I see it. And I am certainly not 
here to pass judgment on any institution, because I--one thing 
I do know, that it is impossible to judge from a distance.
    And we have had a lot of that going on, not this committee 
but just throughout the country. And so unless you are there, 
unless you are immersed in it, you really don't know what is 
happening.
    So, anyway, I would like to give a little perspective from 
36 years of recruiting, being in the middle of the country and 
a sparsely populated state, we were in probably 47, 48 states 
recruiting. And we recruited against probably all 115, 116 
Division I schools at one time or another. So I don't know all 
about recruiting, but I have some idea.
    Let me just say this. The recruiting process has improved 
dramatically since the 1960's, and I am just going to run 
through a few things that have changed. First of all, the 
number of recruiting visits that an athlete could take is now 
five. At one time it was unlimited. We recruited some guys that 
had been on 14, 15, 16 recruiting visits, every weekend from 
October to May. And you can imagine the amount of time that 
this took.
    Second, no contacts--or the number of contacts from coaches 
are limited to one a week. I knew of a school back in the 
1970's who had a guy rent an apartment in a town where there 
was a great player. And this guy was there 5 days a week, and 
he saw that player two or three times a day, and the Booster 
Club gave him an award as the best booster at the end of the 
season for that high school.
    Now, they got the player, but that just simply doesn't 
happen any more. You see them once a week, and the recruiting 
season is now roughly six to 8 weeks. It used to go on 6 to 8 
months. You are allowed one phone call a week after the first 
of September. And, again, that went on, sometimes multiple 
phone calls.
    The first thing that you look at in a student athlete is 
their academic requirements, and that has changed dramatically. 
You have to have 13 core courses. Now, these are not P.E. or--
this is core academic courses. You have to have a 2.5 average. 
You have to have a certain SAT/ACT score. And you have to also 
maintain normal progress toward graduation.
    So in many cases a student athlete has a more difficult 
academic road to hoe than a non-athlete. A non-athlete does not 
have to pass 12 hours a semester or pass 24 hours within two 
semesters. And they can take a break and work. They can take a 
light load. An athlete doesn't have that opportunity.
    Athletes are highly regulated. Graduation rates are 
published. You are drug tested 4, 5, 6 times a year, maybe 4 or 
5 times by the school, once by the NCAA, once by the 
conference. This is random testing. You never know when it is 
going to be.
    And if you take Andro hormones, or any of the drugs that we 
have seen some of these Major League Baseball players take, you 
are sanctioned immediately. You are out. So they don't mess 
around with you. There is a great deal of media scrutiny, as we 
have mentioned.
    As far as the recruiting visit, it is 48 hours in length. 
The host is given $30 per day. Now, I want you to get that--
understand that. The host--the person who shows the athlete 
around is limited to $30. Now, if you are going to take a guy 
to a movie and take him out to eat, there isn't a whole lot of 
money left to hire strippers or other types of activity. So you 
can follow the money.
    And if somebody is violating on the amount of money they 
are giving the host, then these things can happen. But it is 
easy to document the amount of money that they get and where it 
goes.
    Each school is allowed no more than 56 recruits to come in 
on official visits. The reason this is important is that they 
are not going to assign more than 20, 21, 22 on the average, so 
you have got about 35, 36 young men who visit a campus who 
don't come to that campus. So if you want to know what happened 
on the recruiting weekends, those are the guys you go see. 
Those are the guys that David Berst and other people are going 
to talk to, the ones who don't come to the school.
    And if you find a consistent pattern of those who visited 
that school over 3 or 4 years, 30, 40, 50, 60 percent, did 
certain types of activities, then you can pretty well be 
certain that this was a pattern of behavior that was at least 
condoned. But you will find some isolated instances where 
somebody didn't behave very well, because you are dealing with 
fairly large numbers of people. So, anyway, I think that is 
important.
    Entertainment must take place within 30 miles of the 
campus. And the big key in recruiting is not how you ranked in 
the recruiting polls. At the end of the year, everybody rates 
your class--first, second, third, fourth. The key to recruiting 
is, how many of those guys are there 2 years later? And how 
many of them are satisfied with their experience? And how many 
of them are playing and are productive and are academically 
eligible? That is when you know how your recruiting went is 2 
years later.
    So you don't want to go out and recruit guys that aren't 
going to be with you. You don't want to go out and recruit guys 
who are going to flunk out. You don't want to go out and 
recruit guys who are only interested in parties, you know? 
Those are not the kind of people that are going to get the job 
done for you, at least that is my experience.
    The NCAA does enforce rules. You know, I have heard some 
statements here that the NCAA is turning their head. The NCAA 
absolutely does not turn their head. Every college coach that I 
know of is very concerned about the NCAA. If they come in and 
investigate you, they are going to be there for 6 to 8 months.
    They are going to have 2 to 3 guys on your campus, and it 
is like an IRS audit. They are going to go through everything 
you have got, and the report will be 1,000, 2,000, 2,500 pages, 
and most of that will deal with recruiting issues. They are 
looking for a competitive advantage.
    And so people take these things very seriously, and almost 
every school has a compliance coordinator that is--the only job 
that person has is to keep track of the rules, and to make sure 
every coach knows what the rules are, and hopefully that the 
coach is obeying those rules. And so that is a pretty--I mean, 
that is $30-, $40-, $50,000 that you are spending just for 
compliance.
    The rulebook is that thick. An awful lot of it has to do 
with recruiting issues. The purpose of the visit is so the 
recruit can evaluate the school, but also it is so the school 
can evaluate the player. We would occasionally send a guy home 
early. We would occasionally have the host say, ``You don't 
want this guy, Coach. You know, this is not a guy that is going 
to fit in here.'' And so it is a two-way street; you are 
looking at them, they are looking at you.
    And the most important thing is to let them know what they 
are in for, because being a college athlete is not a piece of 
cake. And so what you do is you--I think most schools do this. 
They have a very structured visit. If you are in practice 
working out for a Bowl game, or whatever, they go watch 
practice and they see how hard it is.
    They meet with a faculty member in their major field of 
interest. Almost every school is going to do that. You are 
going to meet with the academic counselors. You will probably 
have a tentative schedule made out before you even leave the 
campus. You will meet with the head coach, the position coach, 
the trainer, the team doctor, the strength coach, the 
nutritionist.
    You will have a meal at the training table with the 
equipment manager, tour the athletic facilities, tour the 
school, tour the community, and then the important part of the 
visit--and I think this is something that I would like to 
emphasize with you--is you will spend time with the student 
host.
    And that is probably the key thing, because if that guy who 
shows you around says, ``You know, I am really sorry I came 
here,'' you can have everything else on that weekend go 
perfectly, and it is all over. That guy is not going to come to 
your school. If the student host says, ``You know, this is a 
good school. You know, these guys treat you right. This is a 
good place to be,'' you have got a pretty good chance.
    But almost every player that goes to visit a school is 
going to want to spend a little bit of time with the student 
host with a coach not present, because there are things they 
want to find out that that student host wouldn't say in front 
of the head coach or an assistant coach.
    And so what we did is we told the players--and I think most 
coaches would tell them this--is, ``You stay away from alcohol. 
Stay away from--if any drugs shows up, get out of there. Go to 
a movie, have dinner, turn in fairly early, because we are 
going to get you up at 7 the next morning, and you are going to 
have all of these appointments.'' Now, maybe that doesn't 
happen at every school, but most of them that I know of do. We 
encouraged the parents to come wherever we could. We felt our 
odds went up 50 percent if we got the parents there, because 
what an 18 year-old is looking for isn't what the parents are 
looking at. And I think most schools, again, want the parents 
there. And you are not going to get up in the morning if you 
went to--and tell your mom, well, you went to a strip club the 
night before. You might not tell her anyway.
    But, anyway, I think it is important to understand that we 
do try to--and I think every school tries to involve parents. 
And then let me just say this. From my perspective, there is no 
competitive advantage to having a young man go out and get 
drunk, or be involved in some type of a promiscuous situation, 
be involved in a situation where there are drugs, because that 
young guy is going to go home and he is going to talk to his 
teammates. And he is going to talk to his coach. He may talk to 
his parents; he may not.
    But the kiss of death is to have a young guy come home from 
a recruiting visit and say that he was engaged in all kinds of 
illegal behavior. Now, this may happen on some campuses. I am 
not saying it never happens.
    But what I am telling you is, by and large, if you talk to 
100 coaches out of Division I-A, I will bet you 98, 99 of them 
would tell you the last thing they want to have happen on that 
recruiting visit is something of that nature, because you are 
not going to normally get that guy if the parents or the high 
school coach or anybody finds out about it.
    Some people think that, well, if you furnish them with some 
type of illicit sexual activity or drugs or alcohol, they are 
more apt to come. I don't think so. You know? You may get a few 
guys like that, but you don't want those guys. You know, those 
are not the people you want to get. And, furthermore, in most 
cases it will finish you off. And so it is not something that 
you are out to do.
    Let me just say a couple other things, and then I will 
desist here. I think it will be relatively easy to determine if 
there has been a consistent pattern of abuses. I really believe 
you can find this out. It may take a little time, but what you 
do is you go interview the guys who visited the campus who 
didn't come there.
    And so in the last 4 or 5 years most schools have had maybe 
100, 150 guys who visited in the football program, maybe 70 or 
80 in the basketball program, who did not come. So you go 
interview them, and say, ``When you went to School X, what did 
you do, you know? What kind of things went on there?''
    And if they are in no way tied to that school, most of them 
are going to tell you what went on. And then again, follow the 
money. You know, what happened to the dollars--the recruiting 
dollars that that student host had? How much money did he get? 
Did he get an illegal amount? And how did he spend it? He has 
got to turn in receipts. So where did he go? What did he do? 
And those are the ways I think that you can track it down 
fairly easily.
    And NCAA is a voluntary organization, and I think it is 
very important that Congress not try to get involved in NCAA 
legislation, because this is an organization where schools 
consent to belong, and for us to make rules it would be very 
difficult. It would be like having the Washington Redskins come 
in here and write tax policy. I mean, you just don't understand 
it. You know, you have to be there to know what to do.
    And there are so many rules now that there are hardly any 
more rules that could be written. There are going to be--there 
is going to be a certain percentage of people that are going to 
cheat on their taxes. There is going to be a certain percentage 
of people who are going to cheat in recruiting, and that is 
just going to happen. That is the way it is.
    There is going to be 10 percent or 5 percent of the people 
in Congress who are not ethical. There is going to be 5 or 10 
percent in the clergy. There is going to be 5 or 10 percent in 
the business community. And you are always going to have that. 
And if you are in a high profile position like Congress or 
athletics, those people who are deviant or don't do the right 
thing are going to get a lot of publicity. And it is going to 
paint the whole deal.
    But--and, again, I am not alibiing for intercollegiate 
athletics. I am just trying to tell you what I think is out 
there.
    Let me also mention one other thing. In 1985, sudden death 
penalty was administered to SMU. And we ran into some deals 
prior to that where we were competing with teams that we knew 
were paying players. We knew they were cheating, and we just 
figured we had to beat them anyway. But after 1985, when 
sudden--when SMU got shut down for 2 years, I saw a tremendous 
shift. I didn't see the cars and the clothes and the cash 
anymore.
    Once in a while we would see somebody that would promise or 
recruit something that couldn't be delivered, like you are 
going to be our starting quarterback. But that is not a 
violation of NCAA rules.
    But I saw a tremendous change, and I can't tell you after 
1985 that I really saw any one player that was bought out from 
under us, you know. Before that time I could say quite a bit. 
Now, I am not saying there is no cheating, but I think it has 
changed quite a bit.
    And then I think, last, I would like to say this. I think 
it is really important to consider the environment in which our 
young people are having to operate today. The high school 
campus, the college campus, compared to when most of you on the 
panel went to college, there is a whole lot of things out 
there. In 1962, I had never heard of crack, never heard of 
meth, never heard of ecstasy.
    There was a little bit of promiscuity, but not like you see 
today. There was an alcohol culture, but not like you see 
today. So athletes are part of the student body when they are 
there. And so I think you need to look at the whole culture, 
and not just isolate the athletic department.
    So, Mr. Chairman, that concludes my remarks. And hopefully 
I have not been out of bounds here. I have just tried to tell 
you how I see it. Thank you.
    Mr. Stearns. I thank my colleague very much for his 
appraisal. Generally, we--I say to the members on the panel 
here, we don't really go into questions to fellow members like 
this. We have another panel that is waiting, so I think--he is 
as busy as all of us, so we are going to let him go.
    Mr. Osborne, thank you very much for your time.
    Mr. Osborne. Thank you, Mr. Chairman.
    Mr. Stearns. With that, we will have the panel--the second 
panel come up. David Berst, Vice President of Division I, the 
National Collegiate Athletic Association, please come to the 
desk. Dr. Elizabeth Hoffman, President of the University of 
Colorado System; Mr. David Williams, II, Vice Chancellor for 
Student Life and University Affairs, General Counsel, Professor 
of Law, Vanderbilt University; and Mr. Don McPherson, Executive 
Director, Sports Leadership Institute, Adelphi University.
    And let me thank all of you for your time. And you are here 
volunteering, so you are to be commended and thanked, and we 
know how busy you are. You are just as busy as all of us, and 
so, again, we thank you for your time.
    I think what we will do is just--if you don't mind, just 
start from my left and go to my right. And, Mr. McPherson, if 
you are ready, we will let you start with your opening 
statement. We are going to have to have you put on the mike. I 
think there is--if it is--or bring it closer to you.

 STATEMENTS OF DONALD G. McPHERSON, EXECUTIVE DIRECTOR, SPORTS 
 LEADERSHIP INSTITUTE; DAVID WILLIAMS, II, VICE CHANCELLOR FOR 
STUDENT LIFE AND UNIVERSITY AFFAIRS, GENERAL COUNSEL, PROFESSOR 
  OF LAW, VANDERBILT UNIVERSITY; ELIZABETH ``BETSY'' HOFFMAN, 
 PRESIDENT, UNIVERSITY OF COLORADO SYSTEM; AND S. DAVID BERST, 
               VICE PRESIDENT OF DIVISION I, NCAA

    Mr. McPherson. All right.
    Mr. Stearns. Yes, just bring it a little closer.
    Mr. McPherson. Is it working now?
    Mr. Stearns. Now I think we can hear you good.
    Mr. McPherson. I am coachable.
    Mr. Stearns. Coachable. Teachable.
    Mr. McPherson. Thank you.
    Thank you, Mr. Chairman, and Representative Schakowsky and 
members of the committee, for taking the time to address this 
extremely important issue--one that I have, as an individual, 
benefited from throughout my life as a football player, a high 
school football player in New York, and a college football 
player at Syracuse University.
    I sit before you today not because I was a great student or 
an intelligent person, but because I was a football player. My 
life as an advocate trying to prevent violence against women, 
my life as an advocate working with young people on very 
serious issues, came about because I was a football player. I 
was asked as a student athlete at Syracuse University to work 
with young people on very, very important issues.
    And I learned from very early on that we have a distorted 
sense of the importance of athletics in our culture, to the 
point where we are blinded by the people that we very often 
hold up as role models, as heroes, and not holding them 
accountable for the individuals that they are.
    I teach a class at Adelphi University called Sport and 
Civilian, and ask my students at the very beginning of the 
semester if they believe that sports are good for kids, and 
there is an automatic response of yes. And just like many 
members here today and my fellow panel members will tell you 
that sports has been a wonderful and tremendous asset in their 
lives and at their institutions.
    And I believe, as someone who has been around athletics for 
all of my life, I am 38 years old, I have been playing football 
since I was 8 years old, that sports has become a cancer in our 
culture. We have this blind understanding that sports develops 
character, it teaches teamwork and sportsmanship and all of 
these positive things that we just assume it teaches. And if we 
don't proactively teach the things that we are asking young 
people to learn, it will teach them the negative things.
    We are obviously here today not because of the recruiting 
that is going on in intercollegiate athletics. Most student 
athletes on college campuses are amazing, amazing young people. 
The overwhelming majority of student athletes on college 
campuses are amazing young people who are taking on a 
tremendous amount in their sports, as well as academically.
    We are not here to talk about those student athletes. We 
are here to talk about the 22 that you mentioned. We are here 
to talk about Division I-A football and basketball. That is 
where the problem has always reared its head. And I think that 
is the issue that needs to be addressed.
    Intercollegiate athletics, higher education, and athletics, 
in its current form in this country is out of control. Eight 
billion dollars, a billion dollar contract, for the NCAA 
tournament March Madness that is about to begin, and it is 
truly madness. Of these student athletes that are playing on 
Monday night during--in the middle of the semester, we are 
asking these young people to generate billions of dollars in 
the name of nonprofit institutions.
    They know that before they come to campus. They know that 
long before they come to campus, that they are the stars in the 
show. And when I ask my students about whether or not they 
think sports are good for kids, and we talk about young people 
from a very early age, a lot of the behaviors that the NCAA and 
the institutions of higher education have been trying to 
address in terms of athletics are really in many cases issues 
that they cannot impact.
    Initial eligibility standards were created to ensure that 
student athletes were capable of doing college work. The 
reality is that it is our secondary and primary educational 
institutions that have to ensure that young people come with 
the necessary skills to matriculate in higher education.
    The same thing is true with off-the-field behavior. The one 
workshop that I do many times with college athletes and high 
school students and union workers. And I am here this week not 
only for this hearing but also with Lifetime Television to talk 
about violence against women. As I talk about violence against 
women and violence in general, it is learned behavior.
    When I ask students what we learn from sports, and I ask 
young men the worst insult they ever heard as young boys, ``You 
throw like a girl.'' What message do we learn from a very early 
age? That boys are supposed to be tough. Where do we--who do we 
value? Why am I here today? Because I represent iconic 
masculinity. I am a football player. There are people who I 
have learned from who don't get the platform I get to say the 
things I do, because I was a football player.
    We value the tough, strong--we don't expect our student 
athletes on our college campuses to be nice guys. We want them 
to kick the crap out of the other team. We encourage them to do 
so. They grow up in a culture that trains them to be that. And 
the statement, ``You throw like a girl'' not only says that as 
a man you had better be all these things, but it also says 
implicit in that statement that girls are less than.
    And the student athletes who come to our campus after years 
and years and years of being rewarded for being those iconic 
masculine figures also learn in that process the role of 
women--cheerleaders baking cupcakes for student high school 
football players, the recruiting process.
    And the recruiting process, I don't think that anyone who 
has been around athletics at the Division I-A football and 
basketball level--and as someone mentioned earlier, on our 
college campuses, the amount of sexual behavior that is going 
on on our college campuses, in our high schools.
    It is all too clear how often we are seeing these problems. 
And I apologize if my comments seem somewhat scattered, but 
this is a huge, huge issue, and there are no easy answers to a 
very complex problem.
    Mr. Stearns. I will ask you to sum up, if you would.
    Mr. McPherson. I will.
    Mr. Stearns. We are just trying to keep each one to 5 
minutes.
    Mr. McPherson. I think it is very important that when we 
talk about the laws of the land versus the laws that govern 
intercollegiate athletics or recruiting that the laws of the 
land take precedent. And that we recognize that when student 
athletes or students commit crimes against women, commit crimes 
against others on campus, that they be dealt with as crimes as 
such, and that we recognize that intercollegiate athletics and 
programs on college campuses cannot continue to operate in 
isolation from the rest of campus.
    And I will close with one last point. Mr. Chairman, please 
indulge me with this one last point, that the NBA and the NFL 
both have rookie transition programs that they institute 
because they recognize that student athletes go through 4 or 5 
years on a college campus and don't come with the adequate 
skills to be professional athletes. And so they put their 
players, their rookies, through programs to help them with all 
of the different responsibilities that they are going to have 
to be a professional athlete. Colleges are failing these young 
men, and those are the ones who make it.
    [The prepared statement of Donald G. McPherson follows:]

 Prepared Statement of Donald G. McPherson, Executive Director, Sports 
                Leadership Institute, Adelphi University

                              INTRODUCTION

    I applaud the Committee on Energy and Commerce for examining the 
issues facing college athletics. My testimony before the committee on 
``College Recruiting: Are Student Athletes Being Protected?'' reflect 
more than 20 years of experience in this area. I have come to learn 
that the dynamics of college athletics, good and bad, are increasingly 
more complex and advanced than when I was recruited by Syracuse 
University in 1982. While the recruiting practices at the University of 
Colorado-Boulder have come under tremendous scrutiny, and have led to 
such hearings as this, I must caution the committee not to confine its 
investigation to recruiting practices or guidelines. The process of 
recruiting student athletes and the problems that have brought us here 
today, are byproducts of the larger issues facing higher education and 
its athletic entities. Further, while the welfare of student athletes 
should always be taken into consideration, our institutions, student 
populations and communities must also be recognized as primary 
stakeholders in any discussion of athletics in the educational setting. 
Failure to account for all stakeholders and perspectives will result in 
a squandered opportunity to positively impact one of the great 
traditions of American Culture; intercollegiate athletics.

                           COLLEGE ATHLETICS

    College athletics does not exist in a vacuum. Furthermore, many 
factors contribute to the process of recruiting prospective student 
athletes. Least among these factors is the academic reputation or 
integrity of a given institution. It must be noted that the 
overwhelming majority of student athletes who attend college have 
specific academic or (non-sport) professional goals. However, such 
student athletes are not at the center of recruiting scandals or other 
criminal and behavioral transgressions. The student athletes and 
athletic programs that have brought us to this hearing represent a very 
small and unique portion of college athletics, also with the greatest 
influence. Division I-A basketball and football programs operate by a 
different set of unwritten rules and under dramatically different 
pressures and scrutiny than all other sports. Also, on many campuses 
these programs often function in relative isolation from the larger 
campus community. For the purposes of this hearing, my comments will be 
directed towards, but not limited to, those institutions that 
participate at the Division I-A level in basketball and football.
    The title of this hearing implies that it is college student 
athletes that are being hurt by the recent allegations of recruiting 
improprieties, particularly at the University of Colorado-Boulder. 
While I do believe that the student athletes involved will bear the 
scars of this case, it is because several women have broken their 
silence about sexual assaults that has forced this discussion. So the 
question must be asked, who is less protected in the search for the 
next All-American, the student athlete, or those whom they encounter 
during their time as recruits and subsequent years on campus?

                      PROTECTING STUDENT ATHLETES

    But first, allow me to address the question of ``protection of the 
student athlete.'' The charge of exploitation of the student athlete 
has become increasingly difficult to defend for the National Collegiate 
Athletic Association (NCAA) and it' I-A member institutions. A multi-
billion dollar television contract for the men' basketball tournament 
and the Bowl Championship Series (BCS) in football are gross 
illustrations of how college athletics, at this level, are no longer 
the altruistic endeavor of not-for-profit institutions of higher 
learning. Nevertheless, higher education insists the system is fair, 
and student athletes are being fairly treated in this equation. I don't 
intend to address the issue of compensation, rather, the means by which 
the NCAA has sought to ensure fairness.
    Initial Eligibility Standards were created in response to dismal 
graduation rates of student athletes, a major concern of those who felt 
the system was not fair to student athletes. Minimum standards are now 
required for first year student athletes to be eligible to participate 
in their sport. The problem with this process is that college athletic 
programs can do nothing to ensure that our public educational systems 
(grades K-12) are adequately preparing students for college work. This 
has resulted in enormous resources being directed towards helping 
student athletes ``catch up.'' Despite the efforts of institutions to 
support student athletes, graduation rates continue to be a major 
problem.
    On and off the field of play, fundamental skills are the building 
blocks for success. Without adequate skills in the classroom, student 
athletes will cheat, fail, or worse, never attempt to succeed.

                           ATHLETES ON CAMPUS

    When high school, and younger, students are identified as being 
particularly skilled in a sport, their lives become a commodity as the 
potential for a professional sports contract is recognized. For many of 
these young men, higher education is not in their plans and college 
sports (basketball or football) are mere ``stepping stones'' to the 
next level of play where they can reap the financial benefits of their 
skills.
    As I travel around the country and work with college student 
athletes, it' very obvious that many young men have come to college, 
with little interest in being in college. In other words, they don't 
recognize their place in the academic and social environment of the 
entire campus community. This places the individual student athlete and 
the campus community at risk.
    Exacerbating this dynamic is the tremendous attention and resources 
afforded the individual athlete and sport. As basketball and football 
players are cheered by thousands and treated like thoroughbreds, it 
should be no wonder that they exhibit a sense of entitlement. Expecting 
them to ignore the dynamics around them is simply unreasonable. It' 
also important to note, that student athletes at the center of a 
billion dollar (entertainment) industry are well aware of the their 
role as ``stars'' in the show.

                            ALCOHOL AND SEX

    College life is full of new responsibilities and freedoms that are 
often difficult for all students to manage. Fundamental skills are 
necessary for success in this area as well. We must address the 
attitudes and intentions of prospective student athletes before they 
come to campus to ensure they have the requisite skills to manage their 
new environment. Primary among the behaviors to be managed are those 
that involve alcohol and sex. For many young people, the ``prevention'' 
message has been ``don't do it'' or the subject is simply not 
addressed. The messages that young men receive about college sports, 
alcohol and sex are that they are all part of the party. Beer 
advertisements (around sporting events) that objectify women are staple 
symbols of the experience. These messages, however, are not received 
during the recruiting process of prospective student athletes. As early 
as boys aspire to be athletes, they are taking in the messages of the 
culture. When it comes to sexual behavior in particular, many young 
people (primarily boys) are getting their messages from dangerous and 
irresponsible sources, such as pornography. The lack of adequate and 
accurate information has led many young people to make bad decision, 
based on the bad information.

                            RECOMMENDATIONS

    The National Basketball Association and the National Football 
League both use a ``Rookie Transition Program'' to help incoming 
players understand their roles in the business, manage their new 
freedom and wealth and make them aware of the pitfalls that can derail 
and career, or life. This is done with the recognition that many of 
them did not learn these lessons in college and that the professional 
leagues are a very different place. Without question, each league 
created their program to protect their investments, their players. The 
NCAA and its member institutions should institute a similar program, 
designed to help high school student athletes transition to the 
pressure, scrutiny and responsibilities of being a division I-A student 
athlete.
    In addition, college athletic programs that function in isolation 
from the larger campus community must begin to collaborate with those 
campus entities that also contribute to student life (e.g., housing, 
student activities, etc.). Cooperation will improve communication and 
provide student athletes with a better understanding of their 
responsibilities as members of the campus community. This should begin 
during the recruiting process and be maintained through graduation.

                               CONCLUSION

    The problem of sexual violence and inappropriate sexual behavior 
that has sparked this discussion is not unique to college athletics or 
the recruiting process. There are ongoing efforts on most college 
campuses to address the problem of violence against women. By becoming 
more cooperative and proactive athletics programs can have a tremendous 
impact on the efforts to protect all students, including student 
athletes.
    Just as initial eligibility standards have not had an impact on 
secondary education, simply addressing recruiting or any one aspect of 
college sport, will not address the complexities of the problems facing 
our student athletes or the schools and communities that send them to 
our campuses.
    College campuses are designed to be free, respectful and welcoming 
environments. Educating student athletes about their place in this 
environment should be a primary goal of the recruiting process. 
Furthermore, college athletic programs need to work more closely with 
the larger campus community to ensuring the protection and well being 
of all students.

                        BACKGROUND AND EXPERTISE

    In 1982 I was a two-sport high school All-America athlete. To 
varying degrees and with few exceptions I was recruited by every major 
college football program in the country. I accepted a scholarship to 
Syracuse University where I studied psychology. As quarterback of the 
football team, I compiled 22 school records and led the team to an 
undefeated season in 1987. In the process, I was a consensus first team 
All America selection and won more than 18 national awards as the 
nation' best all around player and quarterback. After Syracuse, I spent 
seven years in professional football in the National Football League 
(three years) and the Canadian Football League (four years).
    During my entire seven-year career, I worked with community 
outreach programs in each city. Each off season, I worked with a 
community based organization called Athletes Helping Athletes, Inc. in 
New York. Upon retiring from football in 1994, I accepted a position at 
Northeastern University' Center for the Study of Sport in Society as 
co-director of Athletes in Service to America, an AmeriCorps program. 
``Athletes in Service'' continues to operate on five college campuses 
and adjacent communities. In 1996, I was named director of the Mentors 
in Violence Prevention Program (MVP), a position I held for three 
years. MVP is a gender violence prevention program designed to reach 
college male student athletes and fraternity members.
    Currently, I'm founder and executive director of the Sports 
Leadership Institute at Adelphi University (Garden City, NY). In 
addition, I continue to work in the field of sexual and domestic 
violence prevention as an advocate, educator and public speaker. Since 
1999, I have presented on more than 100 college campuses nation-wide. I 
have worked closely with the Justice Department' Office on Violence 
Against Women, the Centers for Disease Control, the Family Violence 
Prevention Fund, Lifetime Television and many other national and local 
violence prevention organizations. I have appeared on MTV and the Oprah 
Winfrey show to discuss issues of violence against women.
    For the past five years, I have worked as an announcer for college 
football games on three different networks, ESPN, BET and NBC, and 
created the John Mackey Award presented to college football' best tight 
end.

    Mr. Stearns. I thank the gentleman.
    Mr. Williams, welcome.

                 STATEMENT OF DAVID WILLIAMS II

    Mr. Williams. Thank you. Thank you, Mr. Chairman, and 
members of this subcommittee. And thank you for having this 
hearing and inviting me.
    I just flew in last night from Atlanta where the 
southeastern conference is having its tournament, and I just 
had a meeting. I am in the position now at Vanderbilt where I 
serve, not as in name but as in practice, as the Athletic 
Director. And so I have just left a meeting of the athletic 
directors and other members of the SCC.
    And as I flew up here, I thought about the fact that it is 
almost 40 years ago that I left Detroit to go to college as a 
student athlete. And I thought seriously about the fact that in 
all of this time what has changed and what has not changed. And 
it is remarkable of what has not changed.
    Throughout that career, I have been a student athlete. I 
have been a high school and a middle school teacher and coach. 
I have been a professor, both at the law school and at the 
undergrad level. And I would submit to you just even now where 
we have two of our basketball teams at Vanderbilt hopefully 
headed to the NCAA tournament, I have some of those students in 
my class.
    And while they work very, very hard and are good students, 
I think we have set up a system that just really--I am in 
wonderment about the fact that we bring in kids that at some 
time we call at risk, and we then set up a system with those 
kids that are ones that have to, not choose to, but have to 
miss the most classes.
    I am the General Counsel at Vanderbilt. I have negotiated 
sports contracts and sports coaches contracts. I have defended 
our university in Title IX. And now, in full circle, I am now 
running an athletic department at a Division I institution.
    We look at all of the allegations at universities around 
this country. We look at what happened recently at Baylor, at 
Providence, other universities. And in my own SCC we have 
presently three universities that are on some sort of probation 
alone for recruiting violations.
    If you look on the NCAA website alone, and you look at 
major infraction violations since 1999, you will see 62. At 
least 42 of those 62 have recruiting or extra benefits just in 
the title, without even going to the substance.
    So there is an issue, and there is a problem. And I want to 
say that I think there is really five issues that need to be 
looked at in this. The first is the rules. I think the NCAA 
does a very, very good job as far as it can go.
    I would say one thing is if you look at the manual, and as 
a lawyer, you know, I always wonder where rules come from and 
how rules are supposed to be implemented and developed. And I 
would say that one of the problems with the NCAA rules is many 
of the rules are specifically to remedy a situation that 
happened. And, really, when you look even at recruiting and all 
of the pages that deal with recruiting, there really is no 
statement of value, no best practice, no philosophy of what we 
are trying to do.
    And as much as I commend Miles Brand and David for what is 
happening in the task force, and I think it will be good, I 
would submit to you if we are trying to get something out of 
that task force within the next month or month and a half, it 
has to--it is going to be specific to something that just 
happened.
    And that is one of the problems with the rules. Those rules 
need to be revised, need to be reviewed, and we need to come up 
with best practices in recruiting and other things, and some 
philosophy about what we are trying to do and where we are 
trying to go at.
    Second, competitive advantage. One of the things that I 
have learned now that I have responsibility for athletics under 
our new structure at Vanderbilt is every time I talk to a coach 
that is the first word that comes up. We will be--we need to be 
at a competitive advantage, or if I don't do that they will be 
at a competitive advantage. That whole concept of competitive 
advantage is what is pushing everything--what is pushing 
everything.
    If one university can fly a kid on a private jet, then your 
coach wants to do it. If one university is taking chartered 
flights to all of their games, then my coach wants to do it. 
And we have got to get to a point that the money, the 
resources, or the chance or the ability to try to play outside 
of the rules, because if I get caught--if I get caught--the 
penalty won't be that tough, puts people at a competitive 
advantage.
    The NCAA talks about a level playing field. We have to 
level the playing field, take some of that out of it.
    Third, education. And this one really goes to recruiting to 
me. I have seen too many official visits where I keep asking 
the question in the old vernacular of where is the beef--where 
is the education? You know, how much time in this 48 hours is 
really talked about being a student? And I hate to submit to 
you that in many cases the young people that come to some of 
these campuses will spend more time at a downtown club than 
they will dealing with educational aspects on the campus.
    You know, they are students, and I would like to say that 
if we are not going to bring kids to universities for student 
purposes, we shouldn't be bringing them for athletics.
    Fourth, institutional control and responsibility. And I 
would say to you that is one of the biggest ones, especially in 
recruiting, especially in athletics for that matter. The NCAA 
rules are only going to be as good as the institutional control 
on the campuses and at the conferences.
    Now, one of the reasons why Gordon Gee, our chancellor, 
changed the athletics and the structure at our campus, which is 
only good--we only did it for our campus, we didn't do it for 
anybody else--is because we basically saw that athletics, as an 
entity, was drifting away from the mainstream of the 
university, was not integrated in the mainstream in the 
university.
    There is a chancellor and six vice chancellors who 
basically run Vanderbilt University. Athletic things that were 
being done many times they didn't know about them. They might 
not have cared about them, I am not sure, but we have changed, 
and now nothing in athletics--nothing in athletics--will happen 
without institutional control on our institution.
    It has just gotten out of hand. Most presidents and most 
administrators, central administrators, really don't know what 
is happening over in athletics. I had one athletic director 
tell me the other day, which I was just appalled--we were 
talking about the use of general counsel office, and they said, 
``Yes, we have general counsel. We have in-house lawyers at our 
university. But athletics doesn't use them. Athletics doesn't 
use them. They have their own.'' And I would say also in the 
institutional control central administrations have to know what 
is going on in their recruiting. What are the policies? Are 
there written policies for these student hosts?
    I would also add that I think it is deplorable in the 
fact--and we at Vanderbilt have done it, and I plan to stop 
it--that we use these young women as what we call at Vanderbilt 
Gold Stars. I have never understood why we have women hosts for 
our two men's teams.
    Mr. Stearns. I need you to sum up, Mr. Williams.
    Mr. Williams. And, finally, the student athletes. I would 
suggest that we need to start listening to them. I have talked 
to a lot of student athletes, both at Vanderbilt, former 
student athletes, and other schools, and tried to find out, is 
all of this that we are doing in recruiting really germane to 
what their needs are and what their wants are?
    They tell me most of these things we do are just fluff and 
really don't help make a decision.
    Thank you.
    [The prepared statement of David Williams II follows:]
Prepared Statement of Testimony of David Williams, II, Vice Chancellor 
    for Student Life and University Affairs, Vanderbuilt University
    The Recruiting process involves a balancing of the interests of 
prospective student athletes, their educational institutions and the 
Association's member institutions. Recruiting regulations shall be 
designed to promote equity among member institutions in their 
recruiting of prospects and to shield them from undue pressures that 
may interfere with the scholastic or athletic interests of the 
prospects or their educational institution.
    The above statement that appears in Section 2.11 of the NCAA 
Constitution establishes ``The Principle Governing Recruiting'' for 
intercollegiate athletics in Division I of the NCAA. It speaks of 
equity among member institutions, shielding prospects from undue 
pressure and avoiding interference with scholastic or athletic interest 
of the prospects and their educational institution. The question is--
``Is that what college athletic recruiting is really about and does it 
hold true to this governing principle?''
    In recent months the general public has become aware of allegations 
of recruiting violations at major universities in this country. The 
alleged use of sex, the alleged promise of future admittance and 
payment to professional schools, the alleged academic arrangements 
resulting in extra benefits, just may be small exceptions to an 
otherwise solid system of integrity and control within college 
recruiting. Or, on the other hand, it just may be a small section of a 
larger problem that exists within this acknowledged big business that 
is conducted by our colleges and universities.
    Make no mistake of it; I am a true supporter of college athletics. 
I have been and remain both a fan and an advocate of college athletics 
at all divisions, including Division I. It is because of my support and 
belief in what athletics can do for a university, a community, a 
country and an individual that I worry about the place we find 
ourselves today in college athletics, and the problems that we see and 
don't see in college athletic recruiting. By looking at the NCAA 
website and reviewing Major Infraction cases from February 1999 until 
today, we find that forty-two of the sixty-two cases cited had some 
sort of recruiting or extra benefits violations. In teaching sports law 
courses over the past fifteen years, over eighty percent of the law 
students that I surveyed believe that widespread recruiting violations 
occur in major college athletic programs. And of course, we all hear 
the stories at cocktail parties, at the sports bar, at the water cooler 
at work, and when we are just hanging out with our friends about the 
recruiting sidesteps that the other team (not our university) did to 
gain that all important student athlete.
    Well, I submit to you today that while many colleges have clean 
recruiting programs and would never ever think of, or allow something 
illegal (by NCAA standards) or unethical to take place, there are 
others that either condone questionable behavior, look the other way so 
as not to see the questionable behavior, or have athletic programs so 
separate that they truly do not know that the questionable behavior is 
going on right under their noses. And even if it is only a small number 
of colleges, which I sincerely doubt, doesn't that violate the first 
part of the governing principle of equity among the member 
institutions? If University A is following the rules and recruiting 
legally and ethically while University B is doing it just the other 
way, does this not give University B a leg-up in the process? For an 
endeavor like athletics and sports where competition on the field, the 
court, the mat, the rink, the diamond or in the pool, centers on fair 
play and obeying the rules, isn't it a shame that some of us use such 
poor judgment to gain access to the young student athletes that must 
play these games? What a negative and contradictory message we must 
send to them by our actions.
    While some will point the blame at money and state that money and 
the need to win causes this recruiting problem, I am not convinced that 
these alone are the problems. Yes, there is a huge amount of money in 
college athletics, and of course we all love to win, and the coaches 
feel that pressure and realize that great athletes make great teams and 
great teams make successful seasons. So, in order to get those great 
athletes they must be recruited and the saga begins. However, I believe 
there are five other reasons why we find ourselves where we are today. 
Those are NCAA Rules; the concept of competitive advantage; the need to 
reestablish the importance of education; institutional control and 
responsibility; and the welfare of the student athlete. I will discuss 
each in my testimony.

                               NCAA RULES

    The NCAA Manual, which is over 470 pages, has forty pages devoted 
directly to recruiting, and another one hundred and ten indirectly 
touching recruiting under the topics of eligibility, financial aid and 
awards and benefits. If you add on the sections on institutional 
control, ethical conduct and amateurism there is a great deal of rules 
and statements that either directly or indirectly touch recruiting. 
However nowhere in the rules is there a general philosophy of what 
recruiting is about and what should be its major framework. Short of 
the governing principle which appears above, there is no direction 
given that states what is and what is not permissible behavior in 
recruiting. Sure the Manual talks about institutional responsibility in 
recruiting and outlines time periods to call and visit and make 
contacts, but it does not lay out the basic theory of why and how 
recruiting should occur. The one area it does become specific in is 
section 13.01.2, which is entitled Entertainment and states the 
following:
        A member institution may provide entertainment (per Bylaw 
        13.5)At a scale comparable to that of normal student life and 
        not excessive in nature, to a prospect and his or her parents 
        (or legal guardians) or spouse only at the institution's campus 
        (or, on an official visit, within 30 miles of institution's 
        campus). Entertainment of other relatives or friends of a 
        prospect at any site is prohibited.
    Section 13.5.2 adds, ``A member institution may not arrange or 
permit excessive entertainment of a prospect on the campus or elsewhere 
(e.g., hiring a band for a dance specifically for the entertainment of 
the prospect, a chauffeured limousine, a helicopter). I wonder, would 
taking a recruit to a strip club be considered excessive entertainment? 
Section 13.6.2.1, which deals with air transportation, states that ``a 
member institution may pay the prospect's actual round-trip 
transportation costs for his or her official visit to its campus, 
provided a direct route between the prospect's home and the 
institution's campus is used. Use of a limousine or helicopter for such 
transportation is prohibited.'' I assume that means that you can fly a 
prospect to your campus in a private jet? If you look at Section 
13.6.2.3.2 you will find that an institution may use its own airplane 
to transport a prospect to the campus for an official visit, provided 
relatives, other friends or legal guardian(s) do not accompany the 
prospect. So if University A has a private jet or has a fractional 
ownership of a jet, they can transport the prospect to the campus in 
that jet. However, the prospect's parents cannot come along. Is this a 
recruiting visit without the parents and does this mean that we might 
have a university flying a seventeen year old to the campus from his/
her home in a private jet with only the prospect and the pilots?
    Pretty big stuff in deciding if this is the university for you.
    The NCAA rules represent an attempt to provide legislation to 
remedy specific instances of bad behavior. I would not be surprised if 
next we have a rule that will now outlaw the use of private jets. What 
is missing is a set of rules that look at the whole picture--the goals 
and the objectives. The NCAA rules need to be reviewed and revised.

                         COMPETITIVE ADVANTAGE

    If you have any dealings with college athletics you will come into 
contact with the phrase ``competitive advantage.'' We are not talking 
about an advantage on the playing field but an advantage that exists in 
recruiting prospects to attend your institution. From how many charter 
trips the team will be able to make, to the number of student athletes 
who will be allowed to attend summer school regardless of academic 
need, to the ability to have student athletes live off campus to 
generate extra cash money; these are just a few of the things coaches 
are concerned about that fit within the framework of competitive 
advantage. The NCAA is also interested in this concept and deals with 
it under the term ``level playing field.'' Well, we all want a level 
playing field don't we? Or do we? Recruiting and the perks (legal and 
illegal) are the essence of the problem. The rules, which need to be 
revised, and the way in which we conduct our recruiting has to come to 
a point where those with more money or more resources, or those willing 
to bend the rules, are not placed in a position of advantage over the 
others. In recruiting, the playing fields are not level and this is a 
huge problem. If you can fly a young person on a private jet, allow 
them to stay in a suite in the best five star hotel and dine them on 
steak and lobster at the city's finest restaurant, and others must fly 
them commercial, place them in a student dorm and have them eat at the 
university, I fear you will have a competitive advantage. I fail to 
understand what any of it has to do with the educational opportunities 
our universities have to offer or the quality of our athletic programs, 
but rest assured, it is impressive to many a seventeen or eighteen-
year-old prospect. We must remove the competitive advantage that does 
exist within our recruiting process.

                               EDUCATION

    How much of the recruiting actually centers on the educational 
aspect of the university and the prospect's desire for an education? Of 
course, if the prospect demands to see the biology labs or the library 
that will happen, but what if they don't ask those questions. How much 
time is spent with professors, academic support and tutoring, or seeing 
a classroom? We will certainly make sure that you see the weight room 
and hear how the strength coach will build you up. We will certainly 
make sure you visit the locker room and see where your name will appear 
in the room and on a jersey. We will make sure that you know who your 
teammates will be, where the games are played and some of the hot 
social spots on campus or in the neighboring communities. All fine, but 
aren't you coming to college? Or maybe this is just about your athletic 
ability. We need to redesign our recruiting to more clearly focus on 
the educational aspect of college life. If we do not make this 
important during recruiting, the prospect may believe it is not 
important to us and maybe not important to them as well. A one or two 
hour period on education over a forty-eight hour visit is not enough 
time. I am sorry to state that most recruits will spend more time in 
the downtown club than they will on the educational aspects during 
their official visit. This must be changed. When undergraduates 
approach me about going to law school, I do not tell them to find some 
law students and go party with them. I strongly suggest that they talk 
to some law professors, talk to some lawyers, and by all means read 
something about the law and visit at least one of my law classes. Why 
do we purposely separate or downplay the educational part of college in 
the recruiting process? Are we scared it will chase the prospect away?

                INSTITUTIONAL CONTROL AND RESPONSIBILTY

    One of the major parts of the NCAA structure that evolved from the 
recommendations of the Knight Commission and the NCAA President's 
Commission is the concept of institutional control. An athletic program 
that is not integrated into the mainstream of the university is an 
athletic program that is separate. An athletic program that is separate 
from the university is an athletic program that is not controlled by 
the institution. An athletic program that is not controlled by the 
institution is an athletic program waiting for a disaster. In the area 
of recruiting, who is in charge at the institution? Who sets the 
standards for who gets recruited, who does the recruiting, what is 
recruiting about and how do we go about doing the recruiting? What role 
does the faculty play, what role do the student athletes play, and most 
importantly, what role does central administration play in recruiting 
and recruiting policies and procedures on our campus? I had a parent of 
a prospect tell me during their young person's visit to our campus that 
this was the only school where they met someone from central 
administration. The parent made that statement while I was introducing 
them to our Provost, Nick Zeppos, and Vice Chancellor for Public 
Affairs, Michael Schoenfeld. Do we as administrators know why 
recruiting is taking place? Do we know how it is being conducted? Have 
we reviewed and approved the policies we have for recruiting? Or is 
this just the purview of the athletic department? What is the policy 
for student athletes who are to serve as hosts for a prospect? Where 
can they take the prospect? Can they take a seventeen or eighteen year 
old individual to a bar? A nightclub? A strip joint? Must the student 
athlete host document where they went? Can they leave the city where 
the university is located? I remember some years ago when a major 
university was recruiting a young basketball player. On his official 
visit to the campus, his student athlete host took him to a nearby 
major city (which was about 30 to 40 miles away) to a party (allegedly 
at the home of a booster) and on the way back they were in a car 
accident. Did the athletic department know they were going the major 
city? Was it prohibited? Did the university administration know they 
were going to the major city? Was it ok? Would anyone have known about 
this trip but for the accident? Did the student athlete host violate 
any university policy or procedure, and if so what was his punishment?
    University administrators must gain control of this process. It is 
not enough to look the other way and leave it up to someone else. We 
are in control of the university, or at least we should be. There must 
be clear policies and procedures as to what can be done and what cannot 
be done in recruiting, and all athletic personnel must know and 
understand them. These policies and procedures need to be clear to the 
student athletes and to the prospects and their parents. We need to put 
these in front of each prospect and his or her parents and ask them to 
comment on whether or not our host followed these rules.
    I once got a call from a parent of a prospect who wanted to talk 
confidentially to me about the recruiting of his child. He said the 
child loved the university and really wanted to go to our school, but 
had a bad experience on the official visit. It seems that the student 
athlete host decided that they should go out drinking and then to a 
couple of late night parties. This was something in which the prospect 
was not the least bit interested. The prospect was under drinking age, 
did not drink and was concerned about the place and structure of the 
parties. Fortunately the prospect's hometown was not that far away, and 
a call to the parents by the prospect resulted in the parents driving 
down and picking up their child and returning home. They did come back 
the next day to finish the visit. The parent called me, not to 
complain, but was concerned that since his child did not do what the 
host had planned that the host and teammates of the host might think 
that the prospect was not a fun, cool person. I explained to the parent 
this never should have happened and their child was just the type of 
kid we wanted. One who can make their own decisions and not be led by 
the group. But really, how many seventeen-year-old young people would 
have, and could have, done what this one did. Another thing that we 
need to look into is the use of female students as hosts for our 
football and men's basketball prospects. I do not see this existing for 
other sports and I only see females in this role. While we have it with 
our Gold Stars at Vanderbilt, I must confess I am not at all 
comfortable with it even though I know the young ladies involved and 
consider them to be outstanding young folks with integrity and strong 
value systems. However, I am concerned about what this says about us as 
an institution and how we go about using women in selling our 
institution to prospective male students and their parents.

                                STUDENTS

    Finally, we need to ask ourselves what does all this recruiting 
mean to the students and prospective students? What are they interested 
in and what do they get out of this? How do they feel about these 
things, and do our efforts match with their needs? To me this is 
clearly in the NCAA's purview of student-athlete welfare. I have always 
talked to our students, whether student athletes or other students. I 
have always been concerned about our views of serving them and whether 
we are giving them what they need and expect. I purposely have been 
asking student athletes and more so, former student athletes, about the 
recruiting process. Unlike my law school students and much of the 
public, the student athlete population seems not to be as concerned 
with the violations. However, I have noticed they are not as aware as 
one would think about what is a recruiting violation. Most believe they 
get too many calls doing the recruiting process but actually do like 
the perks. However, almost none of them mention academics or the 
educational aspect as something they remember or actually focus on 
(however my conversations with the parents are different). The students 
are concerned with who will be their teammates, do they like this group 
and does the group like them. How is the coach, and what about winning 
and tradition. Of course a nice visit with great food and good social 
life helps, but is not the deciding factor. The NCAA rules force a 
student athlete who has accepted a scholarship at one university and 
attended that university to sit out a year if they decide to transfer. 
I am sure there was a good reason and a situation that prompted this 
rule. The explanation is that the student athlete makes the decision 
based on the school, not the coach and not the team. How far from the 
truth can we be? This is clearly a situation where we are not listening 
to the kids. This is not the place to debate the transfer rule, nor am 
I advocating that at this time, but a coach can leave and go to another 
school and does not have to sit out any time. Are our rules really 
supporting the kids? We need to recognize why these young people are 
choosing our universities and start to address the real needs and wants 
of these folks and our universities. The kids tell me yes, these 
competitive advantage type things have some influence on them, but at 
the end the day they want to play their sport at the college level and 
hopefully attend school and receive an education. All of the rest is 
just fluff and not necessary if we can truly level the playing field. 
While Miles Brand has created a new NCAA Task Force on Recruiting, and 
I commend him for that and for all he is doing to help intercollegiate 
athletics get back on the right foot, I submit that the NCAA already 
has a subcommittee on Recruiting at the Academic/Eligibility/Compliance 
Cabinet level. In fact, I was just appointed to it last month. Great 
committee, great folks, but in the short time I was at the first 
meeting one of the major issues that we were asked to review dealt with 
whether or not we should recommend the continuation of the printing of 
the media guides. Whether the new task force or the old committee, we 
have to start dealing with the real issues. Yes they are tough, but it 
is the only way to save this great thing called college athletics. I 
strongly suggest that we start by listening to the student athletes and 
former student athletes to really learn about recruiting, and not just 
the kids that are on the student athletic advisory boards but the 
others. The ones who might be reluctant to talk, the ones with whom you 
have to build trust, and the ones who might only talk with former 
athletes themselves.
    After all isn't this suppose to be about the kids?

    Mr. Stearns. I thank the gentleman.
    Dr. Hoffman, welcome.

                   STATEMENT OF BETSY HOFFMAN

    Ms. Hoffman. Thank you, Mr. Chairman. I am Elizabeth 
Hoffman, President of the University of Colorado, a four-campus 
university system.
    I would also like to thank the ranking minority member, 
Congresswoman Schakowsky; Congresswoman DeGette from my home 
state, thank you for introducing me; and the other members of 
the subcommittee for giving me the opportunity to speak on this 
very important issue.
    I especially want to thank Congressman Udall, who 
represents the district that the University of Colorado-Boulder 
campus resides in. He cannot be with us today. But I would like 
to recognize Congressman McInnis and Congressman Beauprez who 
did accompany me today.
    I would like to begin by sharing a few facts about our 
university with the subcommittee. The CU-Boulder campus is a 
community of 29,000 students, most of whom are between the ages 
of 18 and 23, and an outstanding faculty of over--and staff of 
over 7,200. We have a great academic history. We are dedicated 
to providing a superior education and opportunities for 
personal growth and development for our students.
    Three Nobel Prize winners and seven McArthur Genius Award 
winners are current or recent CU faculty members. Among public 
universities, we rank fifth in the Nation by the National 
Science Foundation and first by NASA. Seventeen CU graduates 
have flown in space as astronauts. A survey just published in 
The Economist ranked CU-Boulder as the eleventh best public 
university in the entire world.
    We are building a new state-of-the-art Health Sciences 
Center at the former Fitzsimmons Army Medical Base in Aurora. 
The overwhelming majority of our students are intelligent, 
responsible, ethical men and women who care deeply about each 
other and about their university.
    They want and expect a first-rate education, but recently 
the outstanding achievements of our students, faculty, and 
staff have been overshadowed by very troubling allegations 
about our football program. Among other things, there are 
allegations that sex and alcohol may have been used to lure 
recruits.
    At the present time, some of these matters are the subject 
of a criminal investigation by the Colorado Attorney General, 
and some are the subject of private civil litigation against 
the University of Colorado. As of today, no criminal charges 
have been filed, and there have been no findings in any court.
    We do not yet know all the facts with regard to these 
allegations. Much of the evidence involves issues of privacy 
and confidentiality, and in a number of instances the evidence 
is conflicting. Nonetheless, I want to assure this subcommittee 
that we take these allegations extremely seriously, and that we 
are moving rapidly and responsibly to address the situation.
    We will do everything in our power to find out what did 
happen and to take appropriate corrective steps. So let me tell 
you some of the steps we have already taken.
    First, at my urging, the Board of Regents established an 
independent investigative committee to examine the allegations 
related to recruiting and our athletic culture. Committee 
members include, among others, two former Colorado Supreme 
Court Justices, two former legislators, a former prosecutor, 
and victims assistance experts.
    Second, we strongly supported the Governor's naming of the 
Colorado Attorney General as a special prosecutor to 
investigate allegations of criminal wrongdoing.
    Third, we appointed John DiBiaggio, a nationally renowned 
expert in athletic reform and former president of three 
distinguished universities, to examine our athletic department 
policies, practices, management, and operations, and to make 
recommendations for improvement.
    Fourth, we placed the head football coach on paid 
administrative leave pending the outcome of these 
investigations.
    Fifth, we have intensified our ongoing review of our 
policies and procedures, not just with regard to the football 
program and recruiting, but also with regard to alcohol abuse, 
sexual harassment, and sexual assault on campus.
    Sixth, last week we announced what we believe to be the 
Nation's most stringent set of policies and practices in 
Division I-A football recruiting. The new policies and 
procedures are in addition to the standards of conduct 
currently in place, rules that already exceeded those required 
by the NCAA.
    We believe that eliminating unsupervised time on campus, 
eliminating the use of student hosts, imposing an 11 p.m. 
curfew, and reducing the total time of the visit from the 2 
days allowed by the NCAA to 1 day will provide an enhanced 
level of oversight.
    We will not tolerate harassment or exploitation in our 
athletic department or anywhere in our university. We are 
determined to restore the confidence in the University of 
Colorado's ability to create an exemplary athletic and campus 
culture. We are determined to have a high level of oversight 
and accountability in our football program and our athletic 
department.
    As we learn more from the ongoing investigations, we will 
take swift and decisive action as appropriate. As painful as 
this experience has been, we view it as an opportunity to set 
the standard for athletic recruiting and campus culture. Our 
vision is to become a national leader for culture of personal 
respect and responsibility in our football and athletic 
programs and throughout the campus.
    Again, I want to thank the subcommittee for this 
opportunity, and I will be happy to answer any questions when 
the time comes.
    Thank you very much.
    [The prepared statement of Elizabeth Hoffman follows:]

   Prepared Statement of Elizabeth Hoffman, President, University of 
                                Colorado

    Thank you, Mr. Chairman.
    I want to thank the ranking minority member, Rep. Schakowsky, Rep. 
DeGette from my home state of Colorado, and the other members of the 
Subcommittee for giving me the opportunity to speak on this important 
topic. I especially want to thank Representative Udall, whose district 
includes the University of Colorado Boulder Campus, and Representative 
McInnis from Colorado's Third Congressional District, for accompanying 
me today.
    Before I address the topic of this hearing, I would like to give 
the Subcommittee a few facts about our great University.
    The four-campus University of Colorado System is a multi-billion 
dollar economic enterprise that benefits not only Colorado's citizens, 
but has a track record of excellence and world-wide influence.
    The CU-Boulder campus is a community of 29,000 students and an 
outstanding faculty and staff of over 7,200. We have a great academic 
history and mission--to be a world-class research and educational 
institution that serves the citizens of Colorado and the nation. We are 
dedicated to providing a superior education and opportunities for 
personal growth and development for our students.
    Three Nobel Prize winners, and seven MacArthur Genius Award winners 
are current or recent CU faculty members. In fact, only Harvard equals 
CU's record of having MacArthur awardees for each of the past four 
years. Among public universities, we are ranked fifth in the nation by 
the National Science Foundation and first by NASA. Seventeen CU 
graduates have flown in space as NASA astronauts. That is among the 
highest output of any university in the nation. We are in the process 
of building a new state of the art Health Sciences Center at the old 
Fitzsimons Army Medical Base in Aurora, Colorado. And these are only a 
few of our accomplishments.
    The overwhelming majority of our students are intelligent, 
responsible, ethical men and women who care deeply about each other and 
their university. They want and expect a first-rate education.
    Recently, the outstanding achievements of our students, faculty, 
and staff have been overshadowed by deeply troubling allegations about 
our football program. Among other things, there are allegations that 
sex and alcohol may have been used as recruiting tools, and that other 
inappropriate or even illegal conduct has occurred.
    At the present time, some of these matters are the subject of a 
criminal investigation by the Colorado Attorney General and some are 
the subject of private civil litigation pending against the University. 
As of today, no charges have been filed. There have been no findings by 
any court. We do not yet know all the facts about these allegations. 
Much of the evidence involves issues of privacy and confidentiality, 
and in a number of instances the evidence is conflicting.
    Nonetheless, I want to assure the Subcommittee that we take these 
allegations extremely seriously and that we are moving rapidly and 
responsibly to address the situation. We will do everything in our 
power to find out what happened and to take the appropriate corrective 
steps.
    Among the steps we already have taken are the following:

 At my urging, the Board of Regents established an Independent 
        Investigative Committee to examine the allegations related to 
        recruiting and our athletic culture. Committee members include, 
        among others, two former Colorado Supreme Court justices, two 
        former legislators, a former prosecutor, and victim's 
        assistance experts--all outstanding citizens. We have 
        repeatedly encouraged anyone with information about these 
        allegations to bring it to the Independent Investigative 
        Committee.
 We strongly supported the Governor's naming of the Colorado Attorney 
        General as a Special Prosecutor to investigate allegations of 
        criminal wrongdoing.
 We appointed Dr. John DiBiaggio, a nationally renowned expert in 
        athletic reform and former president of three distinguished 
        universities, as Special Assistant reporting directly to me and 
        the Boulder Campus Chancellor, Dr. Richard Byyny. He will 
        examine our athletic department policies, practices, management 
        and operations and make recommendations for improvement.
 We placed Head Football Coach Gary Barnett on paid administrative 
        leave.
 We have intensified our ongoing review of our policies and procedures 
        not just with regard to the football program and recruiting, 
        but also with regard to alcohol abuse, sexual harassment and 
        sexual assault on campus.
 Last week, we announced what we believe to be the nation's most 
        stringent set of policies and procedures regarding Division 1A 
        football recruiting. The new policies and procedures are in 
        addition to the standards of conduct currently in place--rules 
        that already exceeded those required by the NCAA. We are 
        determined to implement measures to make our recruiting 
        practices the most responsible in the country. One of the new 
        rules eliminated unsupervised time on campus for recruits. A 
        parent or coach will have to accompany each recruit during a 
        highly structured visit to the campus. Recruiting visits will 
        be only one night instead of two, and the curfew will be moved 
        from 1 a.m. to 11 p.m. We also eliminated the practice of using 
        student hosts with whom recruits had spent unsupervised time. I 
        have provided the Subcommittee with the complete details of 
        this new policy.
    We will not tolerate sexual harassment or exploitation in our 
athletic department or elsewhere in the University. Abusive behavior 
affects not only the victim, but is harmful to the learning environment 
and to the sense of community within the University.
    We are determined to restore confidence in the University of 
Colorado's ability to create an exemplary athletic and campus culture. 
We are determined to have a high level of oversight and accountability 
in our football program and athletic department. As we learn more from 
the ongoing investigations, we will take swift and decisive action, 
whenever appropriate.
    As painful as this experience has been, we view it as an 
opportunity to set the standard for athletic recruiting and campus 
culture. Our vision is to become a national model for a culture of 
personal respect and responsibility in our football and athletic 
programs and throughout the campus.
    Again, I want to thank the Subcommittee for offering me this 
opportunity. We look forward to working with the NCAA and with our 
colleagues at other universities to address these extremely important 
issues. I am happy to respond to any questions you may have.
                                 ______
                                 
 University of Colorado at Boulder Football Recruitment Policy Changes
 submitted for the house subcommittee on commerce, trade and consumer 
              protection, committee on energy and commerce

Summary
    Recruitment guidelines at the University of Colorado at Boulder 
have been revised several times in recent years. Changes were made in 
1998 and again in 2002, resulting in improvements and further 
strengthening of procedures, practices and expectations. Further 
revisions were announced on March 4, 2004, as part of a new model for 
football recruiting practices.
    In summary, the new model will:

* Strengthen and clarify behavioral expectations for recruiting visits
* Change the schedule and timing of recruiting visits
* Require adult supervision of recruits during the entire visit
* Prohibit participation in private parties
* Establish an earlier curfew for the overnight stay.

Revised Guidelines
    Specific guidelines within the new model include:

* The Head Football Coach will continue to communicate the recruiting 
        guidelines to student-athletes.
* Football recruiting visits to campus will occur primarily after 
        completion of the regular football season, with only a few 
        exceptions such as visits by local recruits or other 
        extraordinary circumstances approved by the Chancellor.
* Prior to the visit, prospective student-athletes, parents, and high 
        school coaches will continue to receive letters explaining all 
        expectations, including behavioral standards.
* Recruitment visits will be limited to one overnight stay, rather than 
        the current two-night stay.
* Prospective student-athletes will be supervised by their parents or a 
        designated coach from the time of arrival until departure. The 
        involvement of player hosts will be discontinued.
* On the night of arrival, curfew will be set at 11:00 p.m., rather 
        than the current 1:00 a.m. curfew, and will be documented by a 
        designated coach.
* Recruitment day will be scheduled and supervised by Athletics 
        Department staff and will include:
    * Breakfast with coaches and players
    * Meetings with faculty members and academic advisors
    * Review of campus academic expectations, support services and 
            sportsmanship issues
    * Review of campus and program policies, processes and expectations 
            regarding responsible alcohol use, sexual and other 
            assault, date rape, sexual harassment, and all aspects of 
            the Student Code of Conduct
    * Meetings with football staff, departmental staff and players
    * A mandatory exit interview will be held with each recruit who 
            visits the campus.
    * Departure for home in the late afternoon or evening of the 
            recruitment day.
* Recruits already are prohibited from using alcohol or drugs. They 
        also are specifically prohibited from attending private parties 
        or entering bars or strip clubs.
* All activities attended by recruits will be planned, approved and 
        supervised by a designated coach.
* Coaches, student athletes and recruits continue to be required to 
        adhere to all NCAA regulations prior to and during a recruiting 
        visit.

Enforcement of Recruitment Guidelines
    Sanctions for violations will be strengthened and clarified for all 
involved in the recruitment process. Specific sanctions include:

* Any prospective student-athlete violating recruitment guidelines will 
        not be admitted to the University.
* Violations by current student-athletes or coaches will result in 
        disciplinary action appropriate to the level of severity of the 
        violation.
* Violations of recruiting guidelines by current student athletes which 
        could also result in violations of the CU-Boulder Student Code 
        of will be referred immediately to the campus Office of 
        Judicial Affairs for prompt investigation and adjudication.

    Mr. Stearns. Thank you.
    Mr. Berst.

                   STATEMENT OF S. DAVID BERST

    Mr. Berst. Thank you. Chairman Stearns, Ranking Member 
Schakowsky, and other--are you hearing me?
    Mr. Stearns. I think you just have to bring it a little 
closer to you.
    Mr. Berst. Okay. Thank you. Do you have me now?
    Mr. Stearns. I think it is on.
    Mr. Berst. It is on now.
    Mr. Stearns. All right.
    Mr. Berst. Chairman Stearns, Ranking Member Schakowsky, and 
other distinguished members of the subcommittee, I appreciate 
the opportunity to appear before you regarding the national 
association's newly formed task force. One of the NCAA's first 
principles is indeed the well being of student athletes being 
of paramount importance to the association.
    Headlines of the last 3 weeks, however, suggest that the 
well being of students and student athletes is at risk on many 
campuses. We have seen allegations of behaviors that are 
morally reprehensible and organizationally unacceptable. The 
University of Colorado is not the only campus where it has been 
charged that recruiting practices, especially those associated 
with official visits, exceeded standards for acceptable 
behavior.
    Let me be clear as well. The use of alcohol, drugs, and sex 
as recruiting inducements cannot and will not be tolerated. 
Revelations of activities that include such practices on 
campuses should be a wakeup call to all campuses to reassess 
standards and practices to reaffirm values and to reiterate the 
expectations for behaviors and the consequences if those 
expectations are not met.
    The campus and its administrators are the first line of 
defense. They are the ones, as President Hoffman has done this 
past week, who must draw the boundaries around what a 
university will and will not do in the very competitive world 
of intercollegiate athletics.
    When allegations relate to criminal acts or violations of 
law, it was rightly pointed out that such allegations are not 
within the purview of the NCAA and are rightly investigated by 
campus and law enforcement authorities. The association, 
however, does have a responsibility through its members to set 
national policy and to govern various practices of an 
intercollegiate athletics program.
    Once approved, however, it is the responsibility of each 
campus to apply the bylaws to local practices. The ideal would 
be an NCAA--and NCAA institutions--where headlines of crimes 
and violations of either laws or bylaws appear so rarely that 
we are struck by their infrequency rather than their common 
occurrence.
    There are three important questions about why I am here 
today. What is the role of the NCAA in regard to past 
recruiting and recruiting visits? How has the NCAA responded? 
And what will its role be in the future?
    The official visit is an important event for the decision 
making process for a high school athlete and the institution. 
This is a time for the athlete, and hopefully the family, to 
spend time on the campus, get a feel for the environment, look 
over athletic facilities, meet coaches and other personnel.
    NCAA rules to date largely do, in fact, address logistical 
issues. These bylaws cover the length of an official visit, the 
number of visits, the amount that can be spent, the radius 
where entertainment can take place. There is little in the 
bylaws that attempts to define the behavior of an institution 
or prospect during such visits.
    The NCAA rules have presupposed that institution will 
employ--institutions will employ a level of common sense and 
common decency to guide behavior. Failing that, however, the 
NCAA should indeed step in and address both the elements of an 
official visit and the expectations and accountability for 
behavior.
    Within a few days of the first headlines, NCAA President 
Miles Brand responded by creating an ad hoc task force to 
address recruiting issues and appointed me as the chair. It is 
the sole role of this task force to fast track a review of the 
issues of NCAA legislation to recommend solutions. The task 
force intends to propose changes that ensure an adequate 
opportunity for prospects to evaluate the academic, campus, 
social, team, and community environments, while also requiring 
standards of appropriate conduct and accountability.
    The task force also begins its work with the presumption 
that regardless of the actual scope of alleged misbehaviors we 
should normalize the recruitment of student athletes to 
approximate what other exceptional prospects receive, such as 
music or art prodigies.
    We do not intend to go through another recruiting season 
without new standards in place. And when those standards are in 
place, violations will be investigated and adjudicated swiftly.
    Finally, allow me to note that university presidents will 
continue to carry the burden in setting standards at the campus 
level and holding institutions--individuals accountable. The 
role of the NCAA as an association is to support those efforts 
through effective national policy that leaves room for 
institutional discretion.
    In the long run, however, success will come only when those 
involved in the operation of intercollegiate athletics programs 
sincerely believe and support the principle that doing the 
right thing is at least as important as getting the right 
recruits.
    Thank you.
    [The prepared statement of S. David Berst follows:]

Prepared Statement of S. David Berst, NCAA Vice-President for Division 
               I and Chair, NCAA Task Force on Recruiting

    Chairman Stearns, Ranking Member Schakowsky and other distinguished 
Members of the Subcommittee, on behalf of the National Collegiate 
Athletic Association, I appreciate the opportunity to appear today and 
inform you of the Association's role regarding recruiting practices and 
the newly formed task force that will review NCAA recruiting rules and 
bylaws. I am David Berst, NCAA vice-president for Division I and chair 
of the NCAA Task Force on Recruiting. I have been employed by the NCAA 
for more than 30 years and have worked directly with the Division I 
governance structure during the last five years. Division I is composed 
of 329 colleges and universities and is one of three divisions within 
the NCAA, a private association of approximately 1,200 four-year 
institutions of higher education and athletics conferences. There are 
some 360,000 student-athletes competing at these NCAA member schools.
    It is the NCAA's first principle and an article of faith between 
higher education and the students they serve that the well-being of 
student-athletes is of paramount importance to the Association, by 
which I mean to include the member institutions, the national office 
staff, the governance entities and the body of bylaws that govern 
intercollegiate athletics. The headlines of the last three weeks, 
however, suggest that the well-being of students and enrolled and 
prospective student-athletes is at risk on many campuses. We have seen 
allegations of behaviors that are morally reprehensible and 
organizationally unacceptable. Although the University of Colorado has 
been a focal point for such allegations, it appears not to be the only 
campus where it has been charged that recruiting practices--especially 
those associated with official visits--exceed standards for acceptable 
behavior. Let me be perfectly clear. The use of alcohol, drugs and sex 
as recruiting inducements cannot and will not be tolerated.

                           ROLE OF THE CAMPUS

    NCAA President Myles Brand has said publicly that revelations of 
activities that include such practices on any campus should be a wake-
up call to all campuses to reassess their standards and practices, to 
reaffirm the values of their institutions with which intercollegiate 
athletics must align, and to reiterate the expectations for behaviors 
and the consequences if those expectations are not met. Indeed, as the 
University of Colorado has demonstrated, the campus and its 
administrators are the first line of defense. They are the ones, as 
President Hoffman has done this past week, who must draw the boundaries 
around what a university will and will not do in the very competitive 
world of athletics recruiting. One university trying to outdo another 
for the attention of highly talented high school seniors is nothing 
new. The success of any sports endeavor begins with the ability to 
assemble athletically proficient individuals whose skills match the 
needs of a team at a particular point of time. Being just one player 
short in a critical spot can make the difference between an average 
season and a good one and between a good season and a championship 
year.
    Competition for recruits has been guided primarily by NCAA bylaws 
that attempt to create a ``level playing field'' for all within a 
division. Even so, individual institutions have retained discretion 
over recruiting practices and the length to which one school will 
compete with another for a particular prospect. Indeed, there may be 
disagreement from campus to campus about what the boundaries should be. 
However, no one would argue that recruiting practices, or any other 
practices and behaviors associated with higher education and 
intercollegiate athletics, should extend to breaking the law or 
abridging the morals of society.

                            LAWS VS. BYLAWS

    Some of the allegations at Colorado and on other campuses relate to 
criminal acts or violations of law. Such allegations are not within the 
purview of the NCAA and are rightly investigated by the campus and law 
enforcement authorities. If there is evidence of wrongdoing, charges 
are drawn, arrests are made and trials are held. There is no role for 
the NCAA in allegations of rape or other criminal activity. 
Investigating such allegations rests entirely with law enforcement 
agencies at the local, state or national levels.
    The Association, however, does have the responsibility through 
application of the will of its members to set national policy or bylaws 
that govern the various practices of an intercollegiate athletics 
program. These bylaws include standards for such activities as the 
conduct and employment of personnel, amateurism, the length of playing 
and practice seasons, financial aid and recruiting--to name only a few. 
Proposals establishing or amending these bylaws derive entirely from 
the membership of the Association. They debate and either approve or 
reject every proposal. Once approved, it is the responsibility of each 
campus to apply the bylaws to their local practices. The national 
office staff can and does assist in the process through interpretation 
of the bylaws with regard to specific case application, and the 
enforcement staff is charged with investigating alleged violations of 
the Association's bylaws and for presenting cases to a committee of 
institutional peers for adjudication when the facts appear to support 
that violations have occurred.
    It is critical to understand the differences among allegations at 
Colorado in the current instance or any other institution between 
violations of criminal law and violations of NCAA bylaws. And yet, the 
NCAA and higher education understand that there is a responsibility 
within college sports to create an appropriate environment for sports 
on campus. It should be an environment in which the operation of 
intercollegiate athletics is aligned with institutional values, moral 
precepts and respect for human kind in such a way that headlines 
decrying violations of either laws or bylaws appear so rarely that we 
are struck by their infrequency rather that their common occurrence.

                        ROLE OF THE ASSOCIATION

    There are three important questions relevant to my appearance 
before you today. What has been the role of the NCAA as an association 
with regard to recruiting and recruiting visits? How has the NCAA 
responded to the current allegations of recruiting visit abuse and what 
will be its role in the future?
    The official visit is an important event in the decision-making 
process for a high school athlete. These athletes have likely already 
been in correspondence with a number of coaches from various colleges 
and universities, have probably had some of them in their homes to meet 
with their parents, and have begun the process of narrowing their 
search for a campus that is right for them. The official visit is the 
time for the athlete, and hopefully the family, to spend time on the 
campus, to get a feel for the environment, to look over the athletics 
facilities, to meet the coaches and other personnel and to get to know 
potential teammates.
    The role of the NCAA to date in this process has been largely to 
address logistical issues. (A comprehensive collection of the 
Association's bylaws with regard to official visits is attached to this 
testimony for the subcommittee's review.) These bylaws cover the length 
of the official visit, the amount that can be spent on entertainment 
for the prospect, issues around transportation, policies regarding 
accompanying individuals, the cost of meals and lodging, and the role 
of student hosts. Except for general language in Bylaw 13.5.2 that 
addresses excessive entertainment, there is little in the bylaws that 
attempts to define the behavior of the institution or prospect during 
official visits. NCAA recruiting rules presuppose that institutions 
will employ a level of common sense and common decency to guide 
behavior. It appears that there is agreement that this is no longer 
sufficient and that the NCAA should act swiftly to address both the 
elements of an official visit and the expectations and accountability 
for behavior.

                     NCAA TASK FORCE ON RECRUITING

    Within a few days of the first headlines regarding allegations of 
the use of sex and alcohol during recruiting visits, NCAA President 
Brand responded by creating an ad hoc task force to address recruiting 
issues and appointed me as chair. It is the role of this task force to 
``fast track'' a review of the issues, NCAA legislation, and to 
recommend solutions. The task force intends to propose changes that 
ensure an adequate opportunity for prospects to evaluate the academic, 
campus, social, team and community environments, while also requiring 
standards of appropriate conduct and accountability. As chair, I also 
asked the task force to begin its work with the presumption that 
regardless of the actual scope of alleged misbehaviors, it will 
consider possible changes that focus on a process appropriate for 
exceptional students (e.g., music, art, mathematics prodigies) making a 
visit to a prospective campus and not just prospective student-
athletes. In other words, how can we normalize the recruitment of 
student-athletes to approximate what other exceptional prospective 
students would experience?
    Although the work of the task force has only begun--in fact, it has 
had only one teleconference and will not meet in person until March 
29--the process for review and consideration of alternatives began 
almost immediately. A group of national office staff members have met 
twice to propose options for the task force to consider. To provide 
some flavor for changes under consideration, the following are examples 
of discussion suggestions in five areas: transportation, meals and 
lodging, entertainment, game day activities, duration of official 
visit, and official visit activities.

1. Transportation.
    a. Require institutions providing air transportation to and from an 
official visit to use commercial transportation at coach-class airfare; 
prohibit institutions from using institutional and noncommercial 
airplanes.
    b. Permit institutions to cover the transportation costs of any 
parent or legal guardian accompanying the prospect during the official 
visit.
2. Meals and Lodging.
    a. Require institutions to provide lodging to prospects on official 
visits that is comparable in value to lodging permitted by the 
institution for institutional staff members during business trips.
    b. Require institutions to provide lodging on campus.
    c. Require institutions to provide meals to prospects during 
official visits in institutional dining facilities used by the general 
student body.
    d. Require institutions to provide meals to prospects during 
official visits that do not exceed the value of the meal allowed to 
institutional staff members while on institutional business trips.
3. Entertainment.
    a. Eliminate all off-campus entertainment.
    b. Eliminate all off-campus entertainment that is not supervised by 
an institutional staff member.
    c. Require institutions to use host programs that are used when 
providing tours to prospective students who make campus visits.
4. Game Day Activities.
    a. Prohibit institutions from arranging miscellaneous, personalized 
promotional activities (e.g., game-day jerseys that include the 
prospect's name) during a prospect's official visit.
    b. Prohibit institutions from engaging in any game-day simulations 
during a prospect's official visit.
5. Duration of Official Visit.
    a. Eliminate all official visits; require all visits to an 
institution's campus to be self-financed by the prospect.
    b. Reduce the length of the visit to from 48 hours to 24 or 36 
hours.
    c. Reduce the number of official visits that a prospect may take 
from five to either four or three visits.
6. Official Visit Activities.
    a. Require institutions to organize activities for prospective 
student-athletes during official visits that are identical to 
activities that are organized or arranged for prospective students in 
general who make campus visits.
    b. Require prospects to attend a class or academic orientation 
session during an official visit.

                               CONCLUSION

    President Hoffman and the University of Colorado took an important 
and self-sacrificing step last week with new standards for official 
visits. The result may be that the school has put itself at a 
competitive disadvantage with other schools that do not impose similar 
limits. Some of the steps President Hoffman took may be the same as 
those recommended by the NCAA Task Force on Recruiting, which would 
have the effect of reducing or eliminating the competitive risk to 
Colorado. We will know soon. Not only is the review by the task force 
being ``fast tracked,'' but so is the development of new policy. Like 
other legislative or quasi-legislative bodies, the NCAA's process often 
is deliberative and can appear to move slowly. The work of the task 
force will move much faster. We do not intend to go through another 
football recruiting season without new standards in place.
    And when those standards are in place, violations will be 
investigated and adjudicated swiftly. University presidents carry the 
burden in setting standards at the campus level and holding individuals 
accountable. The role of the NCAA as an Association is to support those 
efforts through effective national policy that leaves room for 
institutional discretion. In the long run, success will come only when 
those involved in the operation of intercollegiate athletics programs 
sincerely believe and support the principle that doing the right thing 
is at least as important as getting the right recruits.
    Thank you.
                                 ______
                                 
      Summary of NCAA Bylaws Regarding Official Recruiting Visits

13.5.1 General Restrictions
    An institution may entertain a prospect and his or her parents [or 
legal guardian(s)] or spouse, at a scale comparable to that of normal 
student life, only on the institution's campus (or, on an official 
visit, within 30 miles of the institution's campus). It is not 
permissible to entertain other relatives or friends of a prospect at 
any site. For violations of this bylaw in which the value of the offer 
or inducement is $100 or less, the eligibility of the individual (i.e., 
prospective or enrolled student-athlete) shall not be affected 
conditioned upon the individual repaying the value of the benefit to a 
charity of his or her choice. The individual, however, shall remain 
ineligible from the time the institution has knowledge of the receipt 
of the impermissible benefit until the individual repays the benefit. 
Violations of this bylaw remain institutional violations per 
Constitution 2.8.1, and documentation of the individual's repayment 
shall be forwarded to the enforcement staff with the institution's 
self-report of the violations. (Revised: 4/24/03 effective 8/1/03)

13.5.1.1 Athletics Representatives
    Entertainment and contact by representatives of the institution's 
athletics interests during the official visit is prohibited.

13.5.2 Excessive Entertainment
    A member institution may not arrange or permit excessive 
entertainment of a prospect on the campus or elsewhere (e.g., hiring a 
band for a dance specifically for the entertainment of the prospect, a 
chauffeured limousine, a helicopter).

13.5.3 Purchase of Game Tickets
    An institution may not reserve tickets for purchase by a prospect 
(or individuals accompanying the prospect) to attend one of its 
athletics contests except on an official visit (see Bylaw 13.7.5.2). 
Tickets may be purchased only in the same manner as any other member of 
the general public. (Adopted: 1/10/92)

13.5.4 Complimentary Admissions--Conference Tournaments
    Conferences approved to host an NCAA YES clinic in conjunction with 
their conference championship may provide complimentary admissions to 
YES clinic participants to attend the conference championship. 
(Adopted: 1/14/97)

13.5.5 Professional Sports Tickets
    Tickets to professional sports contests made available to a member 
institution on a complimentary basis may not be provided to prospects.

13.5.6 Alumni and Friends
    An institution's staff member or a representative of its athletics 
interests may entertain alumni or other friends of the institution in 
the home town of a prospect, provided those entertained are not friends 
of any particular prospect being recruited by the institution.

13.6.2.1 General Restrictions
    A member institution may pay the prospect's actual round-trip 
transportation costs for his or her official visit to its campus, 
provided a direct route between the prospect's home and the 
institution's campus is used. Use of a limousine or helicopter for such 
transportation is prohibited.

13.6.2.2 Automobile Transportation
    When a prospect travels by automobile on an official paid visit, 
the institution may pay round-trip expenses to the individual incurring 
the expense (except the prospect's coach as provided in Bylaw 13.9.1.1) 
at the same mileage rate it allows its own personnel. Any automobile 
may be used by the prospect, provided the automobile is not owned or 
operated or its use arranged by the institution or any representative 
of its athletics interests. (Revised: 1/11/94)

13.6.2.2.1 Prospect's Friends and Relatives
    A prospect's friends, relatives or legal guardian(s) may receive 
cost-free transportation to visit a member institution's campus only by 
accompanying the prospect at the time the prospect travels in an 
automobile to visit the campus.

13.6.2.2.2 Use of Automobile
    The institution or representatives of its athletics interests shall 
not provide an automobile for use during the official visit by the 
prospect or by a student host.

13.6.2.2.3 Coach Accompanying Prospect
    Except as permitted in Bylaw 13.6.2.4, coaching staff members shall 
not accompany a prospect in the coach's sport to or from an official 
visit unless the prospect travels only by automobile. If such 
transportation is used, the 48-hour period of the official visit shall 
begin when the coach begins transporting the prospect to campus. A 
coach who makes an in-person, off-campus contact (i.e., any dialogue in 
excess of an exchange of a greeting) with that prospect [or the 
prospect's parent(s)] during a permissible contact period prior to 
transporting the prospect to campus for an official visit is charged 
with a countable contact. Upon completion of the 48-hour period, the 
coach shall terminate contact with the prospect immediately. (Adopted: 
1/10/95 effective 8/1/95, Revised: 1/14/97 effective 8/1/97, 11/12/97)

13.6.2.2.3.1 Division I-AA Football Exception I-AA
    In Division I-AA football, any member of an institution's athletics 
department (except a volunteer coach per Bylaw 11.01.6) who has been 
certified pursuant to a conference certification program may provide 
such transportation for a prospect between the prospect's home or 
educational institution and the member institution. (Adopted: 1/10/91 
effective 8/1/91)

13.6.2.3 Air Transportation
    The air fare for commercial transportation for the official visit 
may not exceed coach (or comparable) class. Coaching staff members 
shall not accompany a prospect to or from an official visit when air 
travel is used, except as permitted in Bylaw 13.6.2.4. (Revised:1/10/95 
effective 8/1/95)

13.6.2.3.1 Ticket Discounts
    An institution may not arrange payment of the airline ticket to 
allow a prospect [or the prospect's relatives, friends or legal 
guardian(s)] to take advantage of ticket bonuses, rebates, refunds or 
other benefits connected with the purchase of the ticket.

13.6.2.3.2 Institution's Airplane
    An institution may use its own airplane to transport a prospect to 
the campus for an official visit, provided relatives, other friends or 
legal guardian(s) do not accompany the prospect.

13.6.2.3.3 Noncommercial Airplane
    Whenever an aircraft (other than a commercial airplane) is used to 
transport a prospect, payment for its use shall be at the established 
charter rates at the airport where the craft is based. The institution 
shall be prepared to demonstrate satisfactorily that such payment has 
been made. (Revised: 1/10/90)

13.6.2.4 From Airport
    During the official visit, any member of an institution's athletics 
department staff may provide transportation for a prospect and the 
prospect's parents or legal guardians between the campus and the bus or 
train station or major airport nearest the campus.

13.6.2.5 To/From Site of Competition
    A prospect may be transported to campus for an official visit from 
the site of his or her athletics competition or the reverse 
arrangement, provided only actual transportation expenses are paid and 
the cost of the transportation does not exceed the cost of 
transportation between the prospect's home or educational institution 
and the institution's campus.

13.6.2.6 From Educational Institution
    An institution may pay actual transportation costs for the prospect 
to return to his or her home after an official visit that originated at 
the prospect's educational institution, provided the cost of the 
transportation to the legal residence does not exceed the cost of 
transportation to the educational institution.

13.6.2.7 Visiting Two or More Institutions
    Two or more institutions to which a prospect is making official 
visits on the same trip may provide travel expenses, provided there is 
no duplication of expenses, only actual and necessary expenses are 
provided, and the 48-hour visit limitation is observed at each 
institution.

13.6.2.8 Transportation of Prospect's Relatives, Friends or Legal 
        Guardian(s)
    An institution shall not permit its athletics department staff 
members or representatives of its athletics interests to pay, provide 
or arrange for the payment of transportation costs incurred by 
relatives, friends or legal guardian(s) of a prospect to visit the 
campus or elsewhere; however, an institution may:
    (a) Provide automobile-mileage reimbursement to a prospect on an 
official visit, even if relatives or friends accompany the prospect; 
however, in that event the trip shall count as an official paid visit 
only for each recruited prospect in the automobile; and (Revised: 1/11/
94)
    (b) Provide local transportation between its campus and the nearest 
airport for the parents, relatives or legal guardian(s) of a prospect 
making an official visit.

13.6.2.9 Eligibility Ramifications--Restitution for Receipt of Improper 
        Benefits
    For violations of Bylaw 13.6.2 in which the value of the 
transportation is $100 or less, the eligibility of the individual 
(i.e., prospective or enrolled student-athlete) shall not be affected 
conditioned upon the individual repaying the value of the benefit to a 
charity of his or her choice. The individual, however, shall remain 
ineligible from the time the institution has knowledge of the receipt 
of the impermissible benefit until the individual repays the benefit. 
Violations of this bylaw remain institutional violations per 
Constitution 2.8.1, and documentation of the individual's repayment 
shall be forwarded to the enforcement services staff with the 
institution's self-report of the violation. (Adopted: 10/28/97, 
Revised: 11/1/00)

13.7.5.1 General Restrictions
    An institution may provide entertainment, which may not be 
excessive, on the official visit only for a prospect and the prospect's 
parents [or legal guardian(s)] or spouse and only within a 30-mile 
radius of the institution's main campus. Entertainment and contact by 
representatives of the institution's athletics interests during the 
official visit are prohibited. It is not permissible to entertain other 
relatives or friends (including dates) of a prospect at any time at any 
site. For violations of this bylaw in which the value of the 
entertainment is $100 or less, the eligibility of the individual (i.e., 
prospective or enrolled student-athlete) shall not be affected 
conditioned upon the individual repaying the value of the benefit to a 
charity of his or her choice. The individual, however, shall remain 
ineligible from the time the institution has knowledge of the receipt 
of the impermissible benefit until the individual repays the benefit. 
Violations of this bylaw remain institutional violations per 
Constitution 2.8.1, and documentation of the individual's repayment 
shall be forwarded to the enforcement services staff with the 
institution's self-report of the violation. (Revised: 10/28/97, 11/1/
00)

13.7.5.1.1 Meals and Lodging While in Transit
    It is permissible for an institution to pay a prospect's actual 
costs for reasonable expenses (e.g., meals, lodging) incurred while 
traveling to and from campus on the official visit.

13.7.5.2 Complimentary Admissions
    During the official visit, a maximum of three complimentary 
admissions to a home athletics event at any facility within a 30-mile 
radius of the institution's main campus in which the institution's 
intercollegiate team practices or competes-- may be provided to a 
prospect. Such complimentary admissions are for the exclusive use of 
the prospect and those persons accompanying the prospect on the visit 
and must be issued only through a pass list on an individual-game 
basis. Such admissions may provide seating only in the general seating 
area of the facility utilized for conducting the event. Providing 
seating during the conduct of the event (including intermission) for 
the prospect or those persons accompanying the prospect in the 
facility's press box, special seating box(es) or bench area is 
specifically prohibited. For violations of this bylaw in which the 
individual receives an excessive number of complimentary admissions, 
and the value of the excessive admissions is $100 or less, the 
eligibility of the individual (i.e., prospective or enrolled student-
athlete) shall not be affected conditioned upon the individual repaying 
the value of the benefit to a charity of his or her choice. The 
individual, however, shall remain ineligible from the time the 
institution has knowledge of the receipt of the impermissible benefit 
until the individual repays the benefit. Violations of this bylaw 
remain institutional violations per Constitution 2.8.1, and 
documentation of the individual's repayment shall be forwarded to the 
enforcement services staff with the institution's self-report of the 
violation. (Revised: 1/10/90 effective 8/1/90, 1/11/94, 10/28/97, 11/1/
00 4/26/01 effective 8/1/01, 4/24/03)

13.7.5.2.1 Conference Tournaments
    A member institution may not provide complimentary admissions to a 
prospect for a postseason conference tournament. The prospect may 
purchase tickets only in the same manner as any other member of the 
general public. (Revised: 1/10/91 effective 8/1/91)

13.7.5.2.2 NCAA Championships or Other Postseason Contests
    The provision of complimentary or reduced-cost admissions to 
prospects for an NCAA championship (all rounds) or other postseason 
contests (e.g., bowl game, NAIA or NIT championship) constitutes 
excessive entertainment and is prohibited. The prospect may purchase 
these tickets only in the same manner as any other member of the 
general public. (Revised: 1/10/92)

13.7.5.2.3 Purchase of Game Tickets in Same Locale
    An institution may reserve tickets, only for the use of immediate 
family members accompanying a prospect during an official visit and for 
seat locations adjacent to the complimentary seats being provided to 
the prospect. These tickets must be purchased at face value. (Adopted: 
1/10/92)

13.7.5.3 Parking
    An institution may arrange special on-campus parking for prospects 
during an official visit. (Adopted: 1/10/92)

13.7.5.4 Cash to Prospect
    The institution or representatives of its athletics interests shall 
not provide cash to a prospect for entertainment purposes.

13.7.5.5 Student Host
    The institution may provide the following to a student host 
entertaining a prospect:
    (a) A maximum of $30 for each day of the visit to cover all actual 
costs of entertaining the prospect (and the prospect's parents, legal 
guardians or spouse), excluding the cost of meals and admission to 
campus athletics events. These funds may not be used for the purchase 
of souvenirs such as T-shirts or other institutional mementos. It is 
permissible to provide the student host with an additional $15 per day 
for each additional prospect the host entertains; (Revised: 1/10/90 
effective 8/1/90, 1/9/96 effective 8/1/96)
    (b) A complimentary meal, provided the student host is accompanying 
the prospect during the prospect's official visit; and (Adopted: 1/10/
92)
    (c) A complimentary admission to a campus athletics event, provided 
the ticket is utilized to accompany a prospect to that event during the 
prospect's official visit.

13.7.5.5.1 Eligibility Ramifications--Restitution for Receipt of 
        Improper Benefits
    For violations of Bylaw 13.7.5.5 in which the value of the benefit 
to the individual (i.e., prospective or enrolled student-athlete) is 
$100 or less, the eligibility of the individual shall not be affected 
conditioned upon the individual repaying the value of the benefit to a 
charity of his or her choice. The individual, however shall remain 
ineligible from the time the institution has knowledge of the receipt 
of the impermissible benefit until the individual repays the benefit. 
Violations of this bylaw remain institutional violations per 
Constitution 2.8.1, and documentation of the individual's repayment 
shall be forwarded to the enforcement services staff with the 
institution's self-report of the violation. (Adopted: 10/28/97, 
Revised: 11/1/00)

13.7.5.5.2 Multiple Hosts
    If several students host a prospect, the $30 per day entertainment 
money may be utilized to cover the actual and necessary expenses 
incurred by the prospect and all hosts. Only one student host per 
prospect may be provided a free meal if restaurant facilities are 
utilized. Violations of this bylaw shall be considered a violation 
committed by the conference office; however, they shall not affect the 
student-athlete's eligibility. (Revised: 1/10/92, 1/16/93, 1/9/96 
effective 8/1/96, 4/24/03 effective 8/1/03)

13.7.5.5.3 Nonqualifier Prohibition
    The student host must be enrolled in the member institution being 
visited by a prospect. A nonqualifier (see Bylaw 14.02.9) may not serve 
as a student host during his or her first academic year in residence. 
Violations of this bylaw shall be considered a violation committed by 
the institution; however, they shall not affect the student-athlete's 
eligibility. (Revised: 3/19/97, 4/24/03 effective 8/1/03)

13.7.5.5.4 Use of Automobile
    The institution or representatives of its athletics interests shall 
not provide an automobile for use by the prospect or the student host. 
For violations of this bylaw in which the value of the offer or 
inducement is $100 or less, the eligibility of the individual (i.e., 
prospective or enrolled student-athlete) shall not be affected 
conditioned upon the individual repaying the value of the benefit to a 
charity of his or her choice. The individual, however, shall remain 
ineligible from the time the institution has knowledge of the receipt 
of the impermissible benefit until the individual repays the benefit. 
Violations of this bylaw remain institutional violations per 
Constitution 2.8.1, and documentation of the individual's repayment 
shall be forwarded to the enforcement staff with the institution's 
self-report of the violations. (Revised: 4/24/03 effective 8/1/03)

13.7.5.6 Student Support Group Assisting in Recruiting
    An institution may not provide a free meal or entertainment to a 
member of an institutional student support group that assists in the 
recruitment of a prospect during an official visit unless the student 
is designated as the one student host for that prospect. Any additional 
arrangement between the institution and members of such a support group 
(e.g., compensation, providing a uniform) is left to the discretion of 
the institution. (Adopted: 1/16/93)

13.7.5.7 Meals on Official Visit
    The cost of actual meals, not to exceed three per day, on the 
official visit for a prospect and the prospect's parents, legal 
guardian(s) or spouse need not be included in the $30-per-day 
entertainment expense. A dessert or after-dinner snack at the coach's 
residence also may be excluded. (Adopted: 1/10/92, Revised: 1/11/94 
effective 8/1/94, 1/10/95 effective 8/1/95)

13.7.5.7.1 Entertainment at Staff Member's Home
    A luncheon, dinner or brunch at the home of an institutional staff 
member (e.g., the athletics director, a coach, a faculty member or the 
institution's president) may be held for a prospect on an official 
visit, provided the entertainment is on a scale comparable to that of 
normal student life, is not excessive in nature and occurs on only one 
occasion. (Revised: 1/9/96)

13.7.5.7.2 Eligibility Ramifications--Restitution for Receipt of 
        Improper Benefits
    For violations of Bylaw 13.7.5.7 in which the value of the 
excessive meals is $100 or less, the eligibility of the individual 
(i.e., prospective or enrolled student-athlete) shall not be affected 
conditioned upon the individual repaying the value of the benefit to a 
charity of his or her choice. The individual, however, shall remain 
ineligible from the time the institution has knowledge of the receipt 
of the impermissible benefit until the individual repays the benefit. 
Violations of this bylaw remain institutional violations per 
Constitution 2.8.1, and documentation of the individual's repayment 
shall be forwarded to the enforcement services staff with the 
institution's self-report of the violation. (Adopted: 10/28/97, 
Revised: 11/1/00)

13.7.5.8 Normal Retail Cost
    If a boat, snowmobile, recreational vehicle or similar recreational 
equipment (including those provided by an institutional staff member or 
a representative of the institution's athletics interests) is used to 
entertain a prospect or the prospect's parents, legal guardian(s) and 
spouse, the normal retail cost of the use of such equipment shall be 
assessed against the $30-per-day entertainment figure; further, if such 
normal retail cost exceeds the $30-per-day entertainment allowance, 
such entertainment may not be provided. For violations of this bylaw in 
which the value of the offer or inducement is $100 or less, the 
eligibility of the individual (i.e., prospective or enrolled student-
athlete) shall not be affected conditioned upon the individual repaying 
the value of the benefit to a charity of his or her choice. The 
individual, however, shall remain ineligible from the time the 
institution has knowledge of the receipt of the impermissible benefit 
until the individual repays the benefit. Violations of this bylaw 
remain institutional violations per Constitution 2.8.1, and 
documentation of the individual's repayment shall be forwarded to the 
enforcement staff with the institution's self-report of the violation. 
(Adopted: 1/10/92, Revised: 1/9/96 effective 8/1/96, 4/24/03 effective 
8/1/03)

13.7.6 Entertainment on Official Visit for Spouse, Parent or Legal 
        Guardian of Prospect
    A member institution shall limit entertainment, meals and lodging 
on the prospect's official visit to a prospect, the prospect's parents 
[or legal guardian(s)] and spouse. For violations of this bylaw 13.7.6 
in which the value of the excessive entertainment, meals and lodging is 
$100 or less, the eligibility of the individual (i.e., prospective or 
enrolled student-athlete) shall not be affected conditioned upon the 
individual repaying the value of the benefit to a charity of his or her 
choice. The individual, however, shall be ineligible from the time the 
institution has knowledge of the receipt of the impermissible benefit 
until the individual repays the benefit. Violations of this bylaw 
remain institutional violations per Constitution 2.8.1. Documentation 
of the individual's repayment shall be forwarded to the enforcement 
services staff. (Adopted: 4/25/02 effective 8/1/02)

13.7.7 Lodging for Additional Persons
    Additional persons (e.g., prospect's brother, sister, friend) may 
stay in the same room as the prospect or parents, spouse or legal 
guardian(s) of the prospect, but the institution shall not pay the 
costs resulting from the additional occupants. The additional occupants 
shall not be prospects being recruited by the institution. For 
violations of this bylaw in which the value of the offer or inducement 
is $100 or less, the eligibility of the individual (i.e., prospective 
or enrolled student-athlete) shall not be affected conditioned upon the 
individual repaying the value of the benefit to a charity of his or her 
choice. The individual, however, shall remain ineligible from the time 
the institution has knowledge of the receipt of the impermissible 
benefit until the individual repays the benefit. Violations of this 
bylaw remain institutional violations per Constitution 2.8.1, and 
documentation of the individual's repayment shall be forwarded to the 
enforcement staff with the institution's self-report of the violation. 
(Adopted: 1/10/92; Revised: 4/24/03 effective 8/1/03)

13.9.1 Entertainment Restrictions
    Entertainment of a high-school, college-preparatory school or two-
year college coach or any other individual responsible for teaching or 
directing an activity in which a prospect is involved shall be confined 
to a member institution's campus and shall be limited to providing a 
maximum of two complimentary admissions (issued only through a pass 
list) to home intercollegiate athletics events, which must be issued on 
an individual-game basis. Such entertainment shall not include food and 
refreshments, room expenses, or the cost of transportation to and from 
the campus. It is not permissible to provide complimentary admissions 
to any postseason competition (e.g., NCAA championship, conference 
tournament, bowl game). An institutional coaching staff member is 
expressly prohibited from spending funds to entertain the prospect's 
coach on or off the member institution's campus. (Revised: 4/3/02)

13.11.4 Prospect's Visit
    A member institution shall not publicize (or arrange for publicity 
of) a prospect's visit to the institution's campus. Further, a prospect 
may not participate in team activities that would make the public or 
media aware of the prospect's visit to the institution (e.g., running 
out of the tunnel with team, celebratory walks to or around the 
stadium/arena, on-field pregame celebrations). Violations of this bylaw 
do not affect a prospect's eligibility; however, the violation shall be 
considered an institutional violation per Constitution 2.8.1. (Revised: 
1/14/97, 9/12/03)

    Mr. Stearns. I thank the gentleman.
    I will be starting--opening with my questions. Mr. Berst, 
you heard Mr. Williams give his five-point program, and you 
heard Dr. Hoffman talk about what she intends to--she is 
putting in place here.
    It seemed to me if both these individuals are talking about 
reform, why are you not way ahead of the curve? Why haven't you 
done something a long time ago?
    Now, our colleague supported the NCAA and what you are 
doing. But it seems to me that there is some culpability on the 
NCAA because Mr. Williams, who has got a broad background on 
this, both as an athlete, as a professor of law, he has 
outlined five steps. And the people I have talked to who are 
not testifying today, people say that there is a need for huge 
reform.
    And the question is, you said we tend to promote change, 
and we hope by the next fall to have in place these reforms. 
Why haven't you been leading the charge? Is it because of 
something that is preventing you from doing it? I guess the 
main question--don't you think what Mr. Williams said, those 
five points, are good, should be put in place? Just yes or no.
    Mr. Berst. I have--it is a more complex answer than yes or 
no.
    Mr. Stearns. No, I know. But let us just take his first 
one. Let us get to best practices. Let us get to philosophy 
instead of talking about just general, you know, rules or 
procedures. Why not talk about what we are trying to do here. I 
think the No. 1 thing he said it seems like--that seems pretty 
important to me.
    Mr. Berst. I agree entirely, depending on the area in which 
we are speaking.
    Mr. Stearns. Best practices depends upon an area?
    Mr. Berst. Well, if I may explain----
    Mr. Stearns. Sure.
    Mr. Berst. [continuing] In regard to violations of the 
typical NCAA rules that you may be aware of, and the 
enforcement program that is employed in regard to those bylaws, 
I in fact would be proud of that system. In order to address a 
culture, however, you also need the support of the various 
institutions that make up your constituency in order to attack 
that program.
    In regard to the issues that we are talking about, the 
behavior of institutional personnel, institutions have 
maintained autonomy, and they have basically said to us in the 
past----
    Mr. Stearns. So you are saying the university is 
responsible for taking care of it.
    Mr. Berst. Not now I am not. I am saying that up to this 
point institutions have said to us that we can handle that. I 
think the recent revelations that have come about--and they far 
exceed issues in intercollegiate athletics--require attention 
to the cultural issues.
    Mr. Stearns. Okay.
    Mr. Berst. And I believe it provides the opportunity for 
the NCAA----
    Mr. Stearns. Let me get to the cultural issues. Do you 
think if a student athlete violates the rules for drugs, 
alcohol, and sex, it should be one strike and you are out?
    Mr. Berst. I am sorry. I am not sure where that came from. 
The----
    Mr. Stearns. In other words, the school would lose their 
recruit because of it. I mean, do you think that is too 
draconian?
    Mr. Berst. No, that is an easy one. If a recruiting 
violation occurs, that individual is in fact ineligible within 
that----
    Mr. Stearns. As it stands now.
    Mr. Berst. Yes.
    Mr. Stearns. Well, should the school lose something, too, 
because--not just the athlete, should the school--is the school 
now--something happens to the school?
    Mr. Berst. Yes.
    Mr. Stearns. And what happens to the school?
    Mr. Berst. It is left to a nine-member group of the 
Committee on Infractions, seven of which come from other 
schools, two of which are public members.
    Mr. Stearns. You heard Dr. Hoffman's presentation. Do you 
think that perhaps the standard that she is implementing should 
be the standards for all schools?
    Mr. Berst. Those, in fact, will be part of the discussion 
of the task force and are included among our list of options.
    Mr. Stearns. Dr. Hoffman, has Colorado been sanctioned by 
the NCAA for violations since you took over?
    Ms. Hoffman. On the basis of what happened to our previous 
coach, these were different kinds of violations. We are in the 
process of working through some violations that took place 
under our previous coach and under our previous president.
    Mr. Stearns. It was mentioned earlier that many schools 
have a compliance officer, a compliance coordinator. Before you 
instituted these things, did you have a compliance coordinator?
    Ms. Hoffman. We have had a compliance coordinator for many 
years.
    Mr. Stearns. Okay. Mr. Williams, is there anything you 
would like to comment, based upon what Mr. Berst said?
    Mr. Williams. Well, I think the NCAA has had rules, and I 
think that to a certain degree he is correct in the sense that 
the universities have tried to be sort of going their own way. 
But I still believe that if you look at the rules, the rules--
and they are not David's fault. The rules basically have been 
designed in many cases to deal with something that just 
happened when there is a violation.
    I will give you a good example. Everybody is up in arms 
about the young man who was on jet to I think Florida State it 
was. The fact of the matter is if you read the rules, there is 
nothing in the rules that says you can't use a jet. However, 
you can't take the kid in a helicopter.
    And so I wouldn't be--you know, the way the rules have been 
in the past, you know, you wouldn't be surprised if what we 
will get now is, ``Well, you can't use the jet.'' I still go 
back to the fact there should be philosophy. There needs to be 
best practices.
    On the compliance piece, I would say one of the things--you 
know, any major university--and I am sure what President 
Hoffman does at Colorado is we have a lot of compliance issues 
at our university, and one of the questions I would always ask 
universities, is your compliance person in athletics totally 
separated from all of the compliance that goes on at a campus?
    Our compliance officer reports to me as the General 
Counsel, not the Athletic Director. In many athletic 
departments we are asking the compliance officer to basically 
guard over actually who they work for--the athletic people.
    Mr. Stearns. My time has expired. Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. I want to make a 
few observations and then just leave it open for the panel to 
comment on. We heard earlier some testimony that, look, you 
know, there are rules in place, and we are going to get more 
rules in place. But you are always going to have people who 
cheat in a recruiting program.
    And I am concerned that accountability for this culture 
that we have referred to over and over again is not directly 
addressed. And I want to use as an example the comments of 
Coach Barnett. I say using it as an example because I think it 
is not just a matter of an individual.
    And I am going to quote what he said among the sentences. A 
declarative sentence--``Katie was a girl.'' This was an 
allegation of Katie--I don't have--Needa? Nida? Hnida. Who 
claims to have been raped. In defense of the program and 
himself and against the allegations, this was the statement of 
the coach. ``Katie was a girl, and not only was she a girl, she 
was terrible.''
    ``There is no other way to say it. She couldn't kick the 
ball through the uprights.'' He also said, ``It was obvious 
that Katie was not very good. She was awful. You know what guys 
do; they respect your ability.''
    Now, what I hear from that--first of all, is this 
connection--Mr. McPherson, you were saying that the worst thing 
that could be said about a grade school or all the way--is that 
she throws like a girl, or she plays--he--he plays like a girl. 
Girl. Insult. I mean, to some this would be a non sequitur.
    A girl accusing someone of rape and the response is, 
``Katie was a girl.'' Yes. And what does that imply? Well, it 
implies that you know what guys do. They respect your ability. 
This kind of guys will be guys.
    Now, I represent Evanston, Illinois, and Gary Barnett was a 
hero to us in--at Northwestern. So I have a lot--I begin this 
with a lot of affection and respect for Gary Barnett. But if we 
are talking about culture, think of substituting the word 
``girl'' for ``black.'' Would we for a minute tolerate that 
person to go on paid administrative leave?
    And I understand that we are talking about $1.5 million 
here. We are talking about culture. Here is a person who 
embodies the culture of NCAA athletics, the ultimate of a 
football coach, and this is said. It seems to me that this is 
the kind of thing that we say no.
    SMU, the only university where the so-called death penalty 
was ever instated, where their program was dismissed, it seems 
to me that something more than, well, okay, we are going to put 
him on leave and we are going to come up with some new rules, 
and we are going--if we are serious about culture, then we 
should be serious about this remark, which I think goes beyond 
everything, has crossed a line where if we are serious we have 
to say no, this person cannot lead. He has disqualified 
himself.
    Again, I know I am focusing in on this one individual, but 
the words I think may encapsulate what I worry about in the 
culture. I am going to stop there. Anyone who wants----
    Mr. McPherson. If I may address the--from my earlier rant 
about the culture, and I think that this is a tremendously 
complex problem. There is the culture that you are talking 
about that is pervasive, that is the very way which wraps 
around athletics. That culture is a major, major part of 
athletics. It is a major, major part of our society in general.
    I think there is the other issue of student athletes, and I 
think, again, that the NCAA has responded--as Mr. Williams has 
said, has responded to things that are happening in the 
aftermath. And so it is trying to--and also trying to manage a 
burgeoning business of athletics, is generating more and more 
money each year for the top programs.
    Ms. Schakowsky. Let me get to the point, though. Is it 
sufficient when a remark like that is made to say that such an 
individual will be on unpaid leave? Does this cross a line to 
anyone on the panel?
    Mr. McPherson. I have----
    Ms. Schakowsky. Let me ask Mr. Berst.
    Mr. Berst. Well, I think we are not to the last chapter of 
those issues. And what the NCAA has done is used part of that 
as impetus to begin what we are doing. The issue related to 
women and degrading comments regarding women and worse is--is 
an issue that I think is broader than athletics. It was 
demonstrated possibly during that comment.
    What the NCAA did is attempted to use that and other things 
that have occurred to start an effort to evaluate the 
competitiveness of the recruiting practices. Will we do 
anything----
    Ms. Schakowsky. Well, I really want an answer about that, 
because it seems to me if such a remark is left to stand, and 
up to now just a slap on the wrist, then doesn't that say 
something about how aggressive we are going to be about 
addressing this issue of the culture of college athletics?
    Mr. Berst. Well, some of that is with--outside my 
jurisdiction. My efforts are to evaluate the recruiting 
culture. There still remains, obviously, the University of 
Colorado's own evaluation of these issues, and, if necessary, 
matters that might relate to NCAA enforcement. But those are 
just not concluded.
    Mr. McPherson. May I just address that one thing about that 
remark? And the one thing that I--when I talk to coaches, and I 
talk to coaches at large schools and small, they are no 
different in many ways than some of the student athletes that 
they coach with regard to their attitudes and those kinds of 
remarks.
    They use that kind of remark--those kind of remarks all the 
time on the field. ``Let us go, ladies. Pick it up.'' That kind 
of language is pervasive in sports, and I think you are getting 
to--it is a much larger problem than just athletics. We don't 
hire these coaches for them to be good people or to raise good 
people. We don't hire them as educators. We hire them to win 
ball games. Period. And they are part of a larger culture that 
uses that kind of degrading of women to motivate men.
    We also live in a culture that does not hold men 
accountable for their violence in many ways. And I hate to 
bring up an issue that kind of got way too much publicity, but 
we talked so much about Janet Jackson's breast, but we didn't 
talk about Justin Timberlake's hand ripping her shirt off. What 
Justin Timberlake did was an assault, and yet all we talked 
about was the obscenity of her breast. We didn't talk about the 
obscenity of the violence.
    And I think that is part of the issue that there has to be 
a cultural shift in how we look at these issues, and not just 
blame the victims, but hold the perpetrators responsible. And 
it begins with the language that you are talking about.
    Mr. Stearns. The gentlelady's time has expired.
    Mr. Terry.
    Mr. Terry. Thank you, Mr. Chairman. And first to Dr. 
Hoffman, as a Husker alumni, donor to the athletic program, 
season ticket holder, let me just first say that I think I 
speak on behalf of most Nebraskans and Nebraska football fans 
that we take no pleasure in what the University of Colorado's 
football program is undergoing right now.
    In fact, the better Colorado is, the better the big 12 and 
better college sports. So as a college sports fan, it is 
disturbing to me. But there is a rivalry between Huskers and 
Colorado, and I just want you to know that we take no pleasure 
in this situation.
    Ms. Hoffman. Thank you, Mr. Terry.
    Mr. Terry. With that, I am also--you have self-imposed some 
recruiting rules that when you lay those upon what Congressman 
Osborne mentioned, especially with student hosts, as absolutely 
an important part of the recruiting process because it is 
important that a prospective student athlete understands from 
the fellow peer, a student already enrolled, what the culture 
is like, are the coaches really jerks, or are they really 
supportive. You know, those things are important.
    And yet you are going to limit student hosts, their student 
contact, highly supervised, structured. You have lowered the 
time on campus from 48 hours to self-imposed 24 hours. It seems 
to me in a highly competitive recruiting atmosphere that you 
may be injuring the football and athletic program. How do you 
feel about whether or not you have reduced your athletic 
department's competitiveness?
    Ms. Hoffman. Thank you, Mr. Terry. First of all, I think in 
the current environment that is not the appropriate thing we 
have to worry about right now. We really have to worry about 
the educational experience of our student athletes, and that is 
what we are going to focus on in our recruiting visits is 
preparation for the educational experience.
    But we are actually very proud of our educational 
experience. Forty-two of the 43 football players who were 
seniors last year or this year have either--have already 
graduated or are on track to graduate this spring.
    Mr. Terry. Mr. Williams, what do you think? Do those type 
of self-imposed rules run the risk of reducing Colorado's 
competitiveness?
    Mr. Williams. Well, I think that that goes right to the 
point about competitive advantage. I wouldn't be a bit 
surprised if--first off, I think President Hoffman is correct. 
I don't think that that should be the issue right now.
    Mr. Terry. I agree.
    Mr. Williams. But I think that certainly I wouldn't be a 
bit surprised if a football coach or football program members 
would say, ``We are going to be at a competitive disadvantage 
to what might be happening at the other 11 schools in the Big 
12.'' But, you know, it is something that--and this is where I 
think the NCAA is going to have to come in, is they are going 
to have to sort of adopt rules that puts everybody back on an 
equal playing field. But, yes, I think there will be the cries 
of competitive disadvantage that could come out.
    This is one of those times when I think the competitive 
advantage--and I would commend President Hoffman for basically 
taking that step that says, you know, the welfare of our 
student athletes, the welfare of our universities, are more 
important than the competitive advantage.
    Mr. Terry. All right. Mr. Williams, let me--I mentioned an 
article. I had mentioned that it was from The Tribune, but 
actually it is from The Pioneer Press. And this columnist said 
in response to the Minnesota recruit that was taken to a strip 
club, said, ``My biggest question is, is this the standard 
procedure during recruiting visits? If so, it is no wonder the 
recruiting classes have improved. It used to be you got a pizza 
and a tour of the library.''
    Now, his question is my question. How pervasive is this 
recruiting culture throughout universities across the Nation? 
What is your perception, Mr. Williams?
    Mr. Williams. Well, that is a hard--I mean, I would say 
that I am sure it has really gone beyond a pizza and a movie. I 
mean, I think that that is clear. Even at our school it has 
gone beyond that. I was somewhat surprised, quite honestly, to 
find out that there were the number of schools that basically 
had taken--that the host had taken students--prospects to strip 
joints and places like that.
    However, there is a lot of other things that go on. I mean, 
there is a great example of a Midwestern university where the 
recruit came on, and they turned him over to the student host. 
And I think turning him over to the student host was a problem. 
I actually do think that is a problem, and they ended up in the 
metropolitan area closest to the university, which was 45 miles 
away, which now is a violation of the NCAA.
    On the way back from that to the campus they got in a car 
accident. The only way anybody ever knew about this was because 
of the car accident. Nobody at the university knew they were 
going there, and so the things that go on have enlarged and 
enlarged from the days when you had to stay right on campus for 
the trip.
    So, yes, I guess while I was surprised by that, I guess I 
should say I shouldn't have been.
    Mr. Terry. Thank you. That ends my time.
    Mr. Stearns. Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. McPherson and Mr. Williams, both of you talked about 
pressures that go on in institutions in terms of recruiting. 
The pressure because we have multimillion dollar Division I 
athletics programs, particularly football and basketball. And I 
am wondering if--if you wouldn't agree with me. I think, Mr. 
Williams, you said specifically that academic institutions that 
you have seen have actually used women hosts for the male 
teams. Is that right?
    Mr. Williams. In many of the universities the hosts are 
female students.
    Ms. DeGette. And have you seen that also, Mr. McPherson?
    Mr. McPherson. Yes. In fact, if you look in some of the 
yearbooks and programs for the media guide, they will actually 
have a picture of the hosts.
    Ms. DeGette. Of the women hosts.
    Mr. McPherson. Yes.
    Ms. DeGette. And I assume they are----
    Mr. McPherson. Yes.
    Ms. DeGette. [continuing] attractive women for the most 
part.
    Mr. McPherson. I haven't looked closely at the photographs, 
but I would assume----
    Ms. DeGette. That would just be my hunch.
    Mr. McPherson. Yes.
    Ms. DeGette. Now, those women hosts are there for the 
purpose of making the college seem attractive to male athletes, 
which feeds into a lot of what you are talking about--gender 
issues, correct----
    Mr. McPherson. Yes.
    Ms. DeGette. --Mr. McPherson?
    Mr. McPherson. Yes.
    Ms. DeGette. Would you say this is a widespread practice 
around the country--either one of you--using female hosts?
    Mr. McPherson. Yes.
    Ms. DeGette. Are you aware--are off-campus parties with 
these women hosts also a common occurrence?
    Mr. Williams. At our university they are not. It is 
restricted.
    Ms. DeGette. I understand. But are you aware of around the 
country----
    Mr. Williams. There are campuses that I am aware of where 
the women hosts are part of off-campus parties.
    Ms. DeGette. Now, if someone like President Hoffman 
instituted some very strict rules that eliminated these female 
hosts, that eliminated student hosts, that put all of these 
other restrictions in place, and they did that in a vacuum, 
would that put them at a competitive disadvantage in recruiting 
students under the current atmosphere that is out there of 
recruiting?
    Mr. McPherson. Yes.
    Ms. DeGette. And why would that be, Mr. McPherson?
    Mr. McPherson. Because the reality is that student 
athletes--and, again, we are talking about football and 
basketball primarily, and in this case obviously football--are 
not coming to a visit to go to the library.
    Ms. DeGette. Right. I mean, we are being realistic about--
--
    Mr. McPherson. Be realistic. They are coming to the campus 
to find out whether or not this is where they want to spend the 
next 4 years. And if they are being chaperoned around campus, 
they are not going to get the experience that you want them to 
get. You want them to go off with another member of the team or 
to get a feel for what the social life is like on campus, what 
life is like on that campus. That is part of----
    Ms. DeGette. But--okay.
    Mr. McPherson. But here is part of the problem, though. You 
are asking 19 year-old students to take 18 year-old students 
around the college campus.
    Ms. DeGette. Right. And without supervision.
    Mr. McPherson. Yes. But you know what? That is part of 
being an adult. That is part of being----
    Ms. DeGette. Well, I understand. I understand. But also, 
you need to do it in a way that they don't take them around 
campus to a striptease party and underage drinking and sexual 
assault. You would agree with that, too, I am sure.
    Mr. McPherson. I absolutely agree with that.
    Ms. DeGette. Okay.
    Mr. McPherson. However----
    Ms. DeGette. Let me--I am sorry. I have a very limited 
amount of time.
    Mr. McPherson. That is okay.
    Ms. DeGette. Mr. Berst, I wanted to ask you about 
something, given these comments. You said in your testimony 
individual institutions have retained discretion over 
recruiting practices, and you imply--and I think maybe rightly 
so, that the NCAA cannot let--just like we can't legislate 
morality in Congress, you can't legislate every single student 
behavior.
    But yet, when I look at your NCAA bylaws, there are all 
kinds of really specific restrictions in the bylaws. We heard 
you can't take rides in helicopters. You can't purchase game 
tickets, except for under certain circumstances. You can't--
there are restrictions on automobile transportation.
    It looks to me in looking at all of these rules--and I 
think one of the other witnesses alluded to it--all of these 
rules sort of get enacted ex post facto when something bad 
happens. Someone was flying in a helicopter. Okay. Let us have 
a law against that.
    But I find it interesting that you are saying, but we 
really can't legislate around off-campus parties with female 
hostesses that involve underage drinking. I think that that is 
exactly what President Hoffman is trying to get at, whether or 
not you think her rules are restrictive or not. And I am just 
wondering why the NCAA can't institute some rules that would 
prevent this specific type of activity that seems to be 
happening. And by the way, it is not just over the last 3 
months, it is over the last number of years.
    Why can't you do some rules that would stop that specific 
kind of activity from happening, so that Dr. Hoffman's players 
are on a level playing field in terms of recruiting practices 
with every other college and university in the country. And 
most importantly, so our student athletes are protected, and so 
the women students at these institutions are protected.
    Mr. Berst. That is precisely our charge. The rules that you 
have in place have been built through that competitiveness of 
coaches trying to think of one more thing they could do that is 
within the rules that someone else hasn't thought of yet. So 
you have sort of a building of rules that are very specific.
    You are right. The current rules don't talk about very 
specifically the behaviors and the accountability for those 
behaviors. But those certainly can be adopted. You can have 
strict liability.
    Ms. DeGette. And let me----
    Mr. Berst. You can have--there are lots of ways to do it.
    Ms. DeGette. Let me ask you, is that exactly the type of 
practices and rules that this committee is looking at that is 
going to be coming out with recommendations next month?
    Mr. Berst. That is the hope. Thank you very much.
    Ms. DeGette. I look forward to seeing those 
recommendations, Mr. Chairman, and I might suggest a further 
hearing after those proposed rules are issued.
    Mr. Stearns. I think it is a very good suggestion, yes. And 
I thank the gentlelady.
    Ms. Bono.
    Ms. Bono. Thank you, Mr. Chairman. I want to thank our 
panelists for being here today, and I have been listening for 
quite some time. And I don't know if we have made any progress 
in this hearing, to tell you the truth, or not. But as Mr. 
Berst talked about, we are not--talked about a lot of cultural 
issues. And you talked about Janet Jackson, and that was, 
unfortunately, an incident where that Superbowl is more known 
for the indecency than who won.
    But also, we have to talk about our culture and sports. And 
yesterday we saw a hockey player have his neck broken, which to 
me was the most outrageous and deplorable act I think I have 
seen in professional sports. And that all leads to the culture 
that I believe starts in college, and I think the outrage for 
what is happening in Colorado is certainly vast.
    I am a product of USC. I went--I dreamed of going to USC my 
entire life. My dad was on the faculty. He was a professor of 
medicine. My two brothers went to USC. By the time I got to USC 
guess what happened. We were on probation. We were sanctioned. 
No Bowl games, no televised games, and I have got to tell you 
what that does to the morale of students who dream their whole 
life of attending the university. And you get there and the 
excitement is not there.
    And I am curious to, Dr. Hoffman, what an NCAA sanction 
does in the long-term effect to university. It has to have 
lingering effects. I am sure the alumni are not as willing or 
as happy to contribute to the university any longer. Can you 
speak a little bit about what happens after a sanction to a 
university?
    Ms. Hoffman. Well, first of all, let me say that the 
sanction that we are under was, by NCAA standards, extremely 
mild and had to do with some practices by our previous coach 
that were in the range of spending a little bit of extra time 
with recruits, for example. So the particular sanctions that we 
are under right now have not had any perceptible impact on the 
culture at the school.
    As I said, the recruiting rules we put into place I think 
are absolutely essential. And my hope is that we continue to 
have competitive sports, but we have them in an atmosphere in 
which the education of our students is the most important 
thing.
    Ms. Bono. I am sorry. Can you repeat it, though? I tuned 
out a little bit. When you said there are no perceptible 
results, or what did you say?
    Ms. Hoffman. Well, the particular sanctions that we have 
been working through were, by NCAA standards, relatively mild. 
They had to do with voluntarily giving up a couple of 
scholarships, and it had to do with infractions by our previous 
coach that were of the realm of spending a little bit too much 
time with specific recruits.
    They were not in the realm of what USC experienced or that 
SMU experienced. So I can't really speak to their having that 
kind of impact.
    Ms. Bono. Well, I don't know if that is good or bad in your 
case, but I think it is very unfortunate that the entire 
student population does suffer. And I do believe they do, 
whether or not you think it is harsh or not. You know, maybe it 
needs to be harsher. Obviously that is what we are talking 
about today.
    But, Mr. Berst, can you talk about--is this sort of a wink 
and a nod for the NCAA? Or can you talk about how you go about 
investigating and how many people are on your staff who look 
into violations?
    Mr. Berst. Well, if you are talking about the enforcement 
program, actually--and we are increasing by 50 percent the 
resources for that particular group. I am quite proud of the 
efforts of the enforcement staff to investigate major and 
secondary violations. And there is a voluntary program that a 
voluntary association has that actually does investigate, has 
teeth, imposes penalties, along the lines of what you are 
talking about.
    Those penalties are fashioned to take away the competitive 
advantage that is measured in the violations. So that is a very 
serious effort. What I am doing is taking advantage of an 
opportunity where we are not necessarily talking about 
violations; we are talking about other reprehensible behavior 
that has created the opportunity within the NCAA--and I mean it 
is broad-based as well--to reevaluate the recruiting practices 
and the recruiting visits.
    That may be a small step, but it seems to me that that is a 
perfect place to begin, since we understand what it is. And we 
at the same time can address the kinds of issues that we would 
refer to more as cultural.
    Ms. Bono. Thank you, Mr. Chairman. My time has expired.
    Mr. Stearns. I thank the gentlelady.
    Ms. McCarthy.
    Ms. McCarthy. Thank you, Mr. Chairman. And thank you to the 
panelists today for your sharing.
    Of all the things that have been said, one thing has struck 
me as really at the core of what we need to be about for these 
young people, and that was the issues raised by the panelists 
about how to change the culture of NCAA and recruiting, and how 
to change the culture of the university. Because these are not 
the same entity, but they are caught up in I think the same 
need.
    And, really, Mr. Berst, your remarks at the end of your 
testimony were very, very prescient and important. You brought 
out the fact that to do these things may indeed change the 
competitive risk of a university if a school like Dr. Hoffman 
heads goes it alone.
    So I wonder if each of you panelists would reflect on that 
question, because it seems to me it is the culture, both of the 
NCAA and the rules. You have shared with us some of the ideas 
the task force will consider, how that will play out in the 
culture of NCAA. And yet what will it mean to the culture of 
the university if you eliminate all off-campus entertainment 
for a recruit, or eliminate all off-campus entertainment that 
is not supervised by an institutional staff member?
    You know, that wink and nod that my colleague from 
California raised does concern me as well. It is cultural, and 
it is bigger than any one institution. But as institutions that 
have oversight and some control over these individuals for a 
number of years, what is it in that bigger picture that you 
think really needs to change that can be changed?
    Mr. Berst. Just in regard to the rules, I think it is the 
responsibility of the NCAA to help set a national floor. 
Institutions then can impose more restrictions in any 
particular area. And I would think that the exercise that we 
are going through with regard to official visits should at 
least help moderate those risks that Colorado may be taking by 
doing something different than some other institutions.
    But it is interesting that we suffer--we all suffer from 
the notion that in the competitive world of intercollegiate 
athletics you really do have to do everything everybody else 
does, and that is unfortunate because that is not thinking 
about how to address an official visit.
    Why wouldn't we start from the notion that a parent or 
guardian entrusts the child to the administration, the 
institution, and the coaches for a weekend, and be confident 
that they are going to return intact physically and 
emotionally, and that they are going to learn something about 
the academic, social, and athletic environment at the 
institution.
    It seems to me that is a reasonable starting place to begin 
to think about this. And along the way I hope that we are able 
to moderate behaviors and think differently than just through 
the competitive lenses of coaches who are in competition with 
each other.
    Ms. McCarthy. Anyone else?
    Mr. Williams. You know, I think that the--I fear that what 
is starting to happen or what has happened on our campuses, 
when you think of the culture of athletics, is that we might be 
looking at some of the wrong indicators. And let me give you an 
example.
    At Vanderbilt, we have a very, very good graduation rate 
for our student athletes. It generally is as high or close to 
as high as the regular student body. We are proud of the fact 
that we are one of the few universities where in the last 3 or 
4 years we have actually had a football team that graduated at 
100 percent. Now, we haven't had a winning season in a few 
years, and that is a different story.
    But the fact of the matter is what we decided to do was 
look behind the graduation rate and look to see that even with 
this graduation rate were the student athletes who graduated 
actually getting the same sort of education, total education, 
as the non-student athletes.
    And we found out that that just was not the case, that even 
though we are graduating them we probably are not--because of 
what has happened in this athletic world, these young people 
are not able to have the same sort of experience as other 
students. And one of the real interesting things about that is 
we went around, and one of the things that happens for people 
who graduate from Vanderbilt is a great portion of them--there 
is three things that we found out.
    A great portion of them do community service. A great 
portion of them study abroad at some point in time. And a great 
portion of them go on to graduate and professional school. So 
we looked at that, and our student athletes did do some 
community service, but basically team-based. The football team 
would go over to Children's Hospital, but only the football 
team. They won't do that with other students.
    We also found that almost none of our student athletes--
almost none of our student athletes over the last 3 or 4 years 
had had the opportunity to study abroad.
    And we also found out that when we talked to admissions 
directors at graduate and professional schools, what they said 
is, ``When we get the applications for these kids, your student 
athletes, if all they have done is go to class and play a 
sport, and, in fact, spend summer school--I mean, spend the 
summer in summer school, they are not coming to us with study 
abroad experience, with internships, those sort of things.''
    And so I think that that is the culture--that we have 
developed athletics because of the big business, and the 
competitiveness. We have segregated out a group of kids.
    Now, people will say, ``Well, no. We have gotten rid of 
academic dorms, and they live with the kids.'' But if they can 
manipulate the system, they will live in the dorm with other 
kids, but they will live with student athletes. They eat 
separate. Our academic supports are generally separate, you 
know, and so they do live a separate life. That is the culture 
I think we have to break down.
    Mr. Stearns. The gentlelady's----
    Ms. McCarthy. Thank you, Mr. Chairman.
    Mr. Stearns. The gentlelady's time has expired.
    Mr. Towns.
    Mr. Towns. No. 1, that if you have a coach--and, Mr. 
McPherson, I want you to take a shot at this first, because, 
after all, I am a graduate of Adelphi, so I would like for you 
to answer first, and then I will move down the line.
    If you have a coach that is involved in violations, then, 
of course, the administration makes the decision to terminate 
his contract. He leaves and goes and gets a bigger job. He 
leaves the university with all of the problems, the mess that 
he has created, and, of course, they might be sanctioned. All 
kinds of things can happen, you know, but this coach goes and 
gets another job and does just fine.
    The problem is now for the university, for these kids that 
have been recruited. And there seems to be no way to deal with 
that. And I don't see how you can straighten a lot of this 
stuff out or to--if you don't have a way of holding the coach 
accountable for what occurs. How do we deal with that?
    Mr. McPherson. I think that is just another indication that 
the coaches are involved in high business as well. And I think 
the message that is sent to the student athlete is that the 
coach is going to get his, I have to get mine, so to speak. And 
I think how you deal with that is by--well, let me change the 
statement.
    I don't know how you deal with that, and I think that, 
again, that the business of intercollegiate athletics has to be 
reigned in, so that we are holding coaches more accountable, 
that they are part of more--a part of the campus life.
    In other words, they are there as educators, not as coaches 
to win ball games. And so that we are holding them to the 
standard of graduation rates. We are holding them to the 
standard of how well they integrate student athletes into 
campus--the campus community and the greater community.
    I think those have to be the types of quality experiences 
that coaches are more a part of, as Mr. Williams is saying, 
that enhance the experience for student athletes. Granted, the 
student athletes, just by virtue of being involved in 
intercollege athletics, get a tremendous experience, but they 
are missing out on all of those other things. And by 
integrating the coach into those other things as well, I think 
you will start to see coaches who are more invested in the 
educational process.
    Mr. Towns. Okay. I hear you. I hear you. Mr. Williams.
    Mr. Williams. Yes. I actually think that there are some--I 
mean, the penalties now--if the violation is strong enough, the 
penalties travel with the coach. So if the coach--if there is 
a--if President Hoffman has a coach that gets major violations 
while at Colorado, if Vanderbilt--if we choose to hire him, 
some of those things follow that coach.
    So there has been some things put into place to basically 
deal with that. But I would suggest to you, once again, I think 
that one of the things that we have lost sight of, or at least 
I feel we have, is actually who is this about. And I--you know, 
I keep going back, this should be about the kids.
    But there are some rules that we have that really baffle 
me, and I will give you an example of one. We have these 
signing periods where kids sign, and once they sign they are 
committed to our schools.
    Mr. Towns. Right.
    Mr. Williams. And if, in fact, they decide to go somewhere 
else, or if they come to our school and it is not a right fit, 
and they go somewhere else, they have to sit out a year. Okay.
    Coaches can leave on Friday and be coaching on Monday at 
another school. Even breaking a contract, they don't sit out 
any time. So, I mean, when you think about it, who are we 
really protecting here--the coaches or the kids?
    Mr. Towns. Dr. Hoffman.
    Ms. Hoffman. Well, could you ask me what question you would 
like me to answer? I am sorry, Mr. Towns.
    Mr. Towns. Yes. I guess more in terms of my concern is the 
fact that coaches, you know, are not--well, Williams is saying 
now they have changed that to a degree. But I know--I can name 
coaches that I know that have been involved in violations at a 
university and moved to another university, and that school has 
all the penalties.
    And, of course, he created the mess. And I think you even 
talked about the situation in Colorado that--wherein that the 
coach who created the problems then moved on to another school, 
but you had the problems. So I am saying to you that it seems 
to me that we have to hold coaches more accountable, because if 
they violate the rules and then move on, you know, without 
being penalized in some kind of way.
    However, Mr. Williams is saying now that that has changed 
to a degree, and I think the degree he said--because I know of 
situations wherein coaches have sort of had problems in one 
school, and they would go get a job at another one.
    Ms. Hoffman. Well, let me speak to--that particular coach 
did go on to another institution. That institution was also 
sanctioned, and that coach is no longer coaching college ball.
    Mr. Towns. Let me raise--another piece of that would be--
and I guess Mr. Williams, which I really, you know, had some 
problems with the answer, is that a lot of times these things 
come out after the person has gone to another school. How do 
you deal with that?
    For instance, if I am at one school, and then, of course, I 
do things, and then I move on, but what happened will come out 
after I am gone and I have got a contract with another 
university. That is the issue. I mean, so I guess, Mr. Berst, 
let me go to you on this, because my time is running.
    Mr. Berst. Thank you. Actually, I am the author of the 
procedures that you are talking about. And you are right that 
the--particularly basketball coaches were very concerned about 
what you are talking about. There are ways to handle both of 
those situations.
    The coach does have sanctions that follow him, and the way 
that it occurs is that the original institution is asked to 
show cause why they should not be penalized further, or the 
second institution receives the same notice if they do not 
impose certain penalties on the coach.
    If the coach has already left--and I say this because the 
member of the association is the institution, so we have to 
deal with the institutions first. But if he has already left 
and there is a serious allegation involving an individual at 
another institution, we notify the second institution, provide 
notice and opportunities to appear and be heard and participate 
in the proceedings.
    But if findings are made, then, yes, the coach at the 
second institution still would receive penalties. Student 
athletes, in fact, are permitted to leave an institution that 
is under penalty if they are going to miss opportunities to 
participate in post-season play. So there is some relief there. 
It is not perfect, but it does provide for some relief as well.
    Mr. Towns. Will there be another round, Mr. Chairman? Thank 
you.
    Mr. Stearns. We are just going to--I thank the gentleman. 
We are going to take quickly--for another quick round. There is 
just three of us left, and sort of a wrap up, so if you will be 
patient with us.
    When you look, Mr. Berst, at the Division III athletes, 
they seem to be relatively free of problems. Isn't that true?
    Mr. Berst. No, it is not.
    Mr. Stearns. It is not.
    Mr. Berst. No. I would say to you that the competitive 
environment in Division III, which actually is my home, is just 
as intense. The money is not there, but the intensity is. And 
you will see arguments about whether financial aid is 
improperly provided student athletes.
    Mr. Stearns. But do you see these kind of violations that 
we see here?
    Mr. Berst. You see----
    Mr. Stearns. Are they----
    Mr. Berst. No. I am sorry. You do not see----
    Mr. Stearns. So Division III doesn't have----
    Mr. Berst. [continuing] the same violations.
    Mr. Stearns. I mean, the infractions they have are quite a 
bit different than these, aren't they? They are very minor?
    Mr. Berst. I agree, yes.
    Mr. Stearns. Okay. And is that because there is no 
scholarships, do you think?
    Mr. Berst. No. I----
    Mr. Stearns. Then why do you think Division III--is 
Division III a possible model?
    Mr. Berst. As long as you have competitive people, you are 
going to have about 10 percent of the programs involved in 
alleged violations, whether they look like the kind we are 
talking about in I-A, or whether they are the kind that you are 
talking about in Division III, you are going to have about the 
same number of----
    Mr. Stearns. What Division III infractions are you talking 
about, that you say that they--when I asked you--I had the 
impression--at least staff and I had the impression that 
Division III did not have any serious problem. But you are 
saying they do have infractions? Can you give me an example 
what they are?
    Mr. Berst. It would be charges that they are providing aid 
based on athletic ability rather than simply through the normal 
processes that any student would go through.
    Mr. Stearns. Let me just ask sort of a basic question. You 
come off, you know, not knowing a lot about this, and you say 
to yourself, ``Should the NCAA even allow recruiting of student 
athletes?'' Why not make them apply first, and then try out 
once they get to school, like they do in high school. I mean, 
is that a concept that is just not workable?
    Mr. Berst. Well, I think any concept is feasible. You would 
get arguments mostly from all of the schools that think 
everybody would pick Duke. All of the other schools would say, 
``Now wait a minute. I need some opportunity to persuade them 
to come to my school.''
    Mr. Stearns. Competitive--comparative advantage, so to 
speak. And that is what keeps pushing the envelope here.
    Mr. Berst. I think that is right.
    Mr. Stearns. You know, in the last couple minutes I have, I 
am trying to come up with what a solution might be, and I went 
through the oversight hearings on Enron and ImClone and 
questioned all of those. And one of the things that came out of 
that was that the CEO had to sign the P&L statement and be 
personally responsible.
    I think ultimately the NCAA can do all of these rules, and 
you can--Mr. Williams, you can have these five points you 
talked about. But I think the president of the university 
ultimately must bear the responsibility for the conduct and the 
culture that is at that university.
    And I would say, if that is true, if you folks agree with 
me that the president ultimately, no matter what rules or 
reforms you do, if the president doesn't get down and talk to 
the compliance coordinator, and doesn't get out of the office 
and actually talk to these folks and keep track and stand up to 
the alumni association, you are going to have problems like 
this.
    So what would be the feasibility of something like having 
the president of a university sign a document that he or she 
would put her name on, like the CEO has to put on a P&L 
statement, that would sign that, ``We will follow these 
particular rules.'' Now, Mr. Berst, right now the president of 
a university just is advised these are the NCAA rules, right?
    Mr. Berst. Yes. Reasonably, yes.
    Mr. Stearns. Okay. But they don't have to sign their name 
or anything, do they?
    Mr. Berst. Well, there is a form that is signed, but I 
don't think it goes as far as you are talking about. But I 
think what you are suggesting is a possibility, and, in fact, 
is consistent with what we are hearing from men's basketball 
coaches right now.
    They are asking us to evaluate a strict liability for the 
head coach to be responsible for the acts of any of their 
coaches. And that is a dramatic step, but it is very similar.
    Mr. Stearns. Well, trying to bring some accountability 
instead of just talking wishy-washy, you know, suggestions. Let 
us bring in some real accountability, and maybe we will see 
some change.
    I mean, Mr. Williams, what do you think of that idea?
    Mr. Williams. I think it is a good idea. In fact, you know, 
as the general counsel at the university, there are a number of 
times when our president--our chancellor has to fix his 
signature to something. And if the document comes there, it 
comes up to me to advise him, and what I am going to make sure 
before he signs it is that he knows what he is signing, and 
that we have complied with it.
    So, you know, I don't think that is as far-fetched as you 
might think, because out of the Knight Commission, and even the 
NCAA, it now states that institutional control is really--the 
president has to be in control.
    Mr. Stearns. Right.
    Mr. Williams. The CEO of the university. I would submit to 
you, as I said before, I am not sure that that is happening 
all--at every place. And I think that is where we really have 
to get after it. I mean, I think the strict liability of a head 
basketball coach for the assistant coaches is good, but we are 
missing something--the liability of that basketball program, of 
that athletic department, rests in the CEO of the university's 
office.
    Mr. Stearns. Yes. Dr. Hoffman, what do you think of that 
idea? I mean, you can shoot it down or not.
    Ms. Hoffman. I think that is exactly what we have done. I 
think----
    Mr. Stearns. So you are going to sign a document saying 
that you are going to comply, and you are going to bring full 
accountability, and the buck stops here.
    Ms. Hoffman. Well, I think we have already shown that that 
is what we have done with the processes we have put in place to 
try to get to the truth. And the new recruiting rules that the 
chancellor and I put in place, I think that we have taken 
control and brought about accountability at the CEO level.
    Mr. Stearns. Mr. McPherson, what do you think of the idea? 
And then I will ask Mr. Berst.
    Mr. McPherson. I think we are trying to fit a square peg 
into a round hole.
    Mr. Stearns. Okay.
    Mr. McPherson. Higher education is supposed to be this 
altruistic environment where young people go to learn and to 
grow and to develop, to be productive members of society. And 
what we are talking about is trying to manage this business 
where young people know the rules.
    They are not coming to--the student athletes that we are 
talking about, the people like Maurice Clarett who never had 
any intention on being a student athlete at Ohio State, it was 
just a way to get to the next level, and that is the attitude 
that many of these student athletes are coming to campus.
    And so I--with all due respect, I don't think there is much 
that Dr. Hoffman can do for those young men who come to our 
campus who only see it as a conduit to the NFL. And they will 
play the game, they will play the rule, but they are not 
interested in what is going on on the academic side of campus, 
they are not interested in adhering to all the rules that--of 
the institution, because their interest is making it to the 
next level.
    Mr. Stearns. Mr. Berst, and I will just close. Go ahead.
    Mr. Berst. The concept is one that I think certainly 
instills responsibility at the highest level. The interesting 
question to me is whether the student host who decides to take 
a prospect to a strip club would avoid doing that knowing that 
the president might lose his or her job.
    And it is an interesting question. It is certainly a 
possibility, but----
    Ms. DeGette. But I bet you they would avoid going to the 
strip club if they knew if they got caught they wouldn't be 
getting a scholarship and going to the educational institution. 
Wouldn't that be fair to say, Mr. Berst?
    Mr. Berst. I would sure hope so, yes.
    Mr. Stearns. All right. My time has expired.
    Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. McPherson, something you said earlier really got me to 
thinking. And what that was was that you were concerned if--if 
individual colleges or universities or anyone adopted a rule 
saying no student hosts, because part of the whole experience 
of getting to know an institution is getting to know the other 
students and athletes that they will be on the team with. Would 
that be a fair characterization of your----
    Mr. McPherson. Absolutely.
    Ms. DeGette. And I think that that is a really good point 
as I sit up here and think about it. But my question to you is: 
if you are going to retain the concept of student hosts, I 
would assume you would retain the concept of hosts, not 
hostesses, since the hosts----
    Mr. McPherson. Yes.
    Ms. DeGette. [continuing] are the fellow athletes, correct?
    Mr. McPherson. Right.
    Ms. DeGette. But then, what do you do--what can an 
institution or even the NCAA do in its rules to make sure that 
that student host who is hosting the prospective athlete, the 
recruit, does not engage in inappropriate behavior?
    I mean, because what is happening right now--and it is not 
just at the University of Colorado, it is all over the country. 
And I think what is happening from folks I have talked to is 
that once one program starts having strip parties and underage 
drinking, then everybody else hustles to do it because of the 
competitive issues.
    So what kind of rules can you put into place to stop those 
student hosts from engaging in those kinds of inappropriate 
activities?
    Mr. McPherson. You would have to change the entire social 
culture of college campuses.
    Ms. DeGette. Well, I can't do that between now and----
    Mr. McPherson. Exactly.
    Ms. DeGette. I mean, that is----
    Mr. McPherson. And I think that is part of the problem.
    Ms. DeGette. [continuing] a real issue .I don't think you 
can just say, well, you would have to change the whole culture. 
I think we are dealing with such a critical problem, we have 
got to put some kind of rules in place.
    Mr. McPherson. But let me explain to you what is so 
critically important here is that you cannot legislate the 
behavior of students. And you can't tell students that they 
can't party the way they are going to party. These parties are 
going on.
    When I was recruited to Syracuse University, I went out to 
a bar and within about 5 minutes I wanted to go home because I 
wasn't into that bar. I wasn't into that bar scene. And I went 
back to the apartment of the student athlete who I was staying 
with. It was 3 years later or 4 years later that I was on 
campus that I went to my first fraternity party. I was amazed. 
You don't have to go to a strip club to----
    Ms. DeGette. Well----
    Mr. McPherson. [continuing] see the behavior that is going 
on on campus in general.
    Ms. DeGette. You know, I----
    Mr. McPherson. And so I--but here is the important point. I 
think there needs to be education about what it means to be a 
responsible adult. And that includes student athletes and non-
student athletes, and it is the entire culture. I don't think 
that this environment--and I am--I think that there are--are 
there parties going on? Are there sex parties going on? 
Absolutely. Are there strippers being paid for? I----
    Ms. DeGette. But here is the difference. Okay? What we are 
talking about are not college students at fraternity parties. 
We are talking about high school age recruits who are on campus 
for a discrete amount of time being recruited for programs.
    And with all due respect, I agree with everything you have 
said today, except for right up to now. I think we have to find 
some ways--I mean, the NCAA already has an extensive list of 
rules, some of which are meaningless but some seem important, 
on how you conduct these recruitment weekends.
    And I would really urge you to think--and all of us to work 
together to think about some sensible standards we can put in 
place to stop this, because we are not talking about fraternity 
members who are 20, 21 years old going to a party. That is a 
different issue and one that I think we have to address. We are 
talking about high school age recruits. So that is----
    Mr. McPherson. And let me just make this point--that of all 
the difficult transitions for a high school student to go into 
college, academically very difficult to have the discipline to 
study on your own with no one looking over your shoulder and 
all of the reading that is necessary.
    One of the most difficult challenges for a high school 
student making the transition is socially. With the amount of 
alcohol that is accessible, with the amount of freedom, it is 
managing that freedom that is the first and most important 
lesson a student has to make in making the transition, because 
with that freedom comes a tremendous amount of responsibility. 
And the recruiting process is the first opportunity that they 
begin to learn that lesson.
    Ms. DeGette. Well----
    Mr. McPherson. And they need to learn that lesson from 
students who are currently on campus.
    Ms. DeGette. Mr. Berst, I have a different question. You 
can answer----
    Mr. Berst. I would love to answer that one.
    Ms. DeGette. You can answer that one, too, but let me ask 
you the other question, which is, how many--I mean, we know, 
for example, that only one school has gotten the so-called 
death penalty saying they couldn't field a team for a specific 
period of time.
    I am wondering if you can tell me how many enforcement 
actions the NCAA has taken against schools, say, in the last 3 
years for violations of this matter, and if enforcement is part 
of what your panel is considering in formulating these new 
laws.
    Mr. Berst. You said ``this matter.'' Do you mean the nature 
of these allegations?
    Ms. DeGette. Right.
    Mr. Berst. I don't know that I can give you facts on which 
cases involved----
    Ms. DeGette. Okay. How many enforcement actions have they 
taken on any subject in the last 3 years?
    Mr. Berst. Well, Mr. Williams used the 60 major cases that 
involve--two-thirds of which involved improper inducements, 
which was usually money or like items, or extra benefits which 
would be the same. Probably the other third would be academic 
fraud issues for the most part and major--the last 60 major 
cases.
    Some of those also would involve improper entertainment or 
excessive entertainment in a variety of ways, but probably very 
isolated along the lines of the issues that we are talking 
about.
    Will our panel look at enforcement? No. I believe that 
enforcement is doing what it needs to do to attempt to enforce 
the rules in place. We are looking for a way to add sense to 
the recruiting visit experience and to hold institutions 
accountable.
    On your other question, if I may, I think you can look at 
it from a risk analysis. And you have to establish what the 
expectations are. You have to make it clear what the 
expectations are, and you have to have penalties for not 
following through with those expectations, whether they are 
rules or just policies, and redundant education about what 
those expectations are.
    Ms. DeGette. And you also have to have enforcement by the 
NCAA on the institutions, correct?
    Mr. Berst. Absolutely.
    Ms. DeGette. thank you.
    Mr. Stearns. The gentlelady's time has expired.
    The gentleman from New York.
    Mr. Towns. Thank you very much, Mr. Chairman. There is a 
lot of problems here, you know, as I see it. No. 1, that if you 
have coaches that are making 3 and 4 times the money that the 
athletic director is making, and the chancellor or president, 
you know, and they just--a way of sort of gaining power in a 
major kind of way.
    And I will just sort of give a specific example. When we 
were doing the legislation for the Student Athlete's Right to 
Know, the problem was that the coaches said to the chancellor, 
to the academic advisor, do not send out the information. The 
coaches had the power--and in some instances they would say, 
``Well, our coaches do not want us to cooperate.'' I mean, they 
have the power.
    And so as long as you have a coach making 3 and 4 times the 
money that the chancellor and the athletic director is making, 
you know, how do you bring this back under control? I mean, 
because in many instances I have observed that they are not 
even paid the way regular staff people are paid or regular 
professors are paid or regular folks on staff are paid.
    They are paid from another pool of money. It had nothing to 
do with the university per se. I mean, this is what I was told 
when we were doing the research on it and the legislation. Is 
this true?
    Mr. Berst. Actually, what you are talking about I think is 
part of what the Knight Commission is interested in as well, as 
well as the Division I Board of Directors. The shift, if I 
might, I think is that presidents clearly are in control. 
During the years that you are talking about, I do think the 
coaches had more ability to establish policy than probably the 
presidents did.
    And I think the presidents really have established control 
within the NCAA. But the financial issues are serious concern I 
think to all presidents within the NCAA. And we have tried to 
begin by developing a data base to understand what those forces 
are and where the money is spent and how much there is and how 
the salaries operate, what the market forces are, in order to 
at least begin to make some more intelligent decisions if you 
will about issues that relate to athletics.
    That is a continuing issue. I don't think there is a short 
order fix to that, but I think that you have identified a clear 
issue.
    Mr. Towns. Dr. Hoffman? Thank you.
    Ms. Hoffman. Well, Mr. Towns, I think I have demonstrated 
that I have control over the coach.
    Mr. Towns. Even though they make 3 or 4 times the money? 
You think----
    Ms. Hoffman. I have medical doctors who make almost as much 
as the coach does. It has nothing to do with how much money he 
makes. It has to do with who is in control, and I think I have 
demonstrated that I am in control.
    Mr. Towns. Mr. Williams?
    Mr. Williams. I would agree with President Hoffman. I was 
about to make the same point. That if you look at the 1990's, 
at universities, certainly those that have medical complexes, 
the coach is not going to be the highest paid. And it really 
has to do with who has control of the university and the rules 
and procedures.
    And I would say that some of that power that goes to 
coaches that you mentioned really can be taken away by moving 
things away. I mean, it is--you don't have your compliance 
officer report to the athletic director and the coaches. You 
take your academic support and put it over in academic affairs 
where it belongs, those sort of things, so you don't have any 
compromise.
    I mean, you have your admissions. Your last line of 
admissions is the Provost's Office--the Provost of the 
university. So there is ways to basically say you can make that 
million and two million and make more than just about anybody 
else on the campus. But the fact of the matter is you still 
have to follow basic rules and procedures, and there is control 
on this institution.
    I would say that, as Dave said, that I think the NCAA--the 
presidents have taken control of that, but I would say where 
the problem is on some individual campuses. And I commend 
President Hoffman, because she has said, ``I am in control 
here, and this is what is going to happen here.'' More 
presidents need to do that.
    Mr. Towns. All right. Mr. McPherson, another question for 
you. You know, you talked about the transition program that the 
NBA has, and, of course, how much would it cost to institute--
actually to institute such a program generally? How much do you 
think it would cost to do that on a college level?
    Mr. McPherson. Oh, it would cost significantly more than 
what the NBA or the NFL do, because the NFL and the NBA are 
only dealing with about 60, 70 players in the NBA, 300 players 
in the NFL. So it is a--would be a much greater cost, because 
you are talking about all of the Division I-A schools and 
football and basketball that participate, and all of the 
student athletes that they are recruiting each year.
    So there would be significant costs to doing so, but you 
could do it conference by conference. You could do it school by 
school, that schools could create some sort of program. And 
some of them do. Some of them bring student athletes onto 
campus prior to their freshman year to enroll them in classes, 
to get them acclimated.
    But they don't do that in every case, and they don't do it 
for the entire student athlete population, which is necessary 
to integrate these folks into--onto campus, especially with 
everything that we have heard earlier, that they are not 
generally on a daily basis integrated and have the 
opportunities to be involved in other things that are going on 
on campus.
    Mr. Towns. You know, you all--actually, your school has a 
counseling program--in other words, works with athletes in 
terms of tutoring, and all of that. Mr. Williams?
    Mr. Williams. Yes. We have an academic support program 
which we found that as we move down the road that more 
resources and more people need to be involved in that. And I 
think as Diana said, you know, part of it for a long time I 
think we--we looked purely at the academic piece. And, you 
know, some schools--what I call keeping the kids eligible.
    What we have found is there is as much need to deal with 
the social transition, in particular for student athletes, even 
more so than the non-student athletes, because of the time 
allotments and the fact that they have been involved in an 
endeavor that has taken so much of their time and energy.
    So we have tried to expand our--I don't even like to call 
it academic counsel and academic support. It involves all sorts 
of things. I will give you a very interesting thing. One of the 
things that we find that is so new to us now--I had lunch with 
one of our academic counselors, and her cell phone rang about 
five times during lunch. It was the students that she counsels.
    What we are finding now is that the advent of cell phones 
has--all of our student athletes have cell phones. And they 
will call their counselor in the middle of the night. You know, 
am I supposed to--am I really supposed to go to this class 
tomorrow? Or, you know, I am supposed to go on a trip.
    And so I think that the whole area of academic support is 
something that we really need to really get on hand about. And, 
you know, one of the things that I have always said that I 
think is missing out of some of the philosophy that comes down 
is really this whole adjustment and transition for these people 
into the college system.
    We, unfortunately I would say, spent a lot more time, 
because we choose to--and I will use this word sort of 
loosely--``babysitting'' student athletes where we don't do 
that with any other student on the campus.
    Mr. Stearns. The gentleman's time has expired.
    Mr. Towns. Thank you very much, Mr. Chairman. You have been 
very generous.
    Mr. Stearns. Thank you, my colleagues, for staying, and I 
thank all the witnesses. We are complete with the hearing. I 
would say to the--Mr. Berst, that we will look forward to the 
report on April 20, the reforms that you propose. And I would 
say to Dr. Hoffman, and to all the presidents of a university, 
I would find out who that compliance coordinator is, and I 
would sure make sure that person is on board.
    And some of the testimony has been very helpful for us, and 
I want to thank all of you for your time and efforts.
    And the subcommittee is adjourned.
    [Whereupon, at 12:33 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

    [GRAPHIC] [TIFF OMITTED] T2541.001
    
    [GRAPHIC] [TIFF OMITTED] T2541.002
    
    [GRAPHIC] [TIFF OMITTED] T2541.003
    
    [GRAPHIC] [TIFF OMITTED] T2541.004
    
    [GRAPHIC] [TIFF OMITTED] T2541.005
    
    [GRAPHIC] [TIFF OMITTED] T2541.006
    
    [GRAPHIC] [TIFF OMITTED] T2541.007
    
    [GRAPHIC] [TIFF OMITTED] T2541.008
    

</pre></body></html>
